<html>
<title> - HEARING ON ``YOU DON'T NEED PAPERS TO VOTE?'' NON-CITIZEN VOTING AND ID REQUIREMENTS IN U.S. ELECTIONS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
HEARING ON ``YOU DON'T NEED PAPERS TO VOTE?'' NON-CITIZEN VOTING AND ID 
                     REQUIREMENTS IN U.S. ELECTIONS

=======================================================================



                                HEARING

                               Before the

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, JUNE 22, 2006

                               __________

      Printed for the use of the Committee on House Administration




                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

28-965 PDF              WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001



                   COMMITTEE ON HOUSE ADMINISTRATION

                        VERNON EHLERS, Chairman
ROBERT W. NEY, Ohio                  JUANITA MILLENDER-McDONALD, 
JOHN L. MICA, Florida                    California, Ranking Minority 
CANDICE MILLER, Michigan                 Member
JOHN T. DOOLITTLE, California        ROBERT A. BRADY, Pennsylvania
THOMAS M. REYNOLDS, New York         ZOE LOFGREN, California

                           Professional Staff

                      Will Plaster, Staff Director
                George Shelvin, Minority Staff Director


     ``YOU DON'T NEED PAPERS TO VOTE?'' NON-CITIZEN VOTING AND ID 
                     REQUIREMENTS IN U.S. ELECTIONS

                              ----------                              


                        THURSDAY, JUNE 22, 2006

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:02 a.m., in Room 
1310, Longworth House Office Building, Hon. Robert W. Ney 
[chairman of the committee] presiding.
    Present: Representatives Ney, Ehlers, Doolittle, Miller, 
Millender-McDonald, Brady and Lofgren.
    Staff Present: Paul Vinovich, Counsel; Audrey Perry, 
Counsel; Peter Sloan, Professional Staff Member; George 
Shevlin, Minority Staff Director; Thomas Hicks, Minority 
Professional Staff Member; Denise Mixon, Minority 
Communications Director; Matt Pinkus, Minority Professional 
Staff Member; Janelle Hu, Minority Professional Staff; Stacey 
Leavandosky, Executive Director, California Democratic 
Delegation; and Teri Morgan, Legislative Director for Mr. 
Brady.
    The Chairman. Good morning, ladies and gentlemen. The 
Committee on House Administration will come to order. I would 
like to first remind members of our audience today to please 
silence all cellular phones, pagers and other electronic 
equipment to prevent interruption of the hearing. I thank you. 
Of course, I would also like you to silence your mouth if you 
feel an urge to scream out about something. We will try to 
maintain order at all times.
    The purpose of today's hearing is to discuss the issue of 
non-citizen voting and identification requirements in federal 
elections. This is in the broad context of concerns I have 
about fraudulent voting within the United States, and the basic 
issue is fraud, of which non-citizen voting can be one part. 
Although it is a crime for non-citizens to vote in federal 
elections, most states have no procedures in place to prevent 
it from happening.
    To demonstrate that non-citizen voting is a real and 
relevant threat to the elections process, I will offer for 
inclusion in the record a release from the Department of 
Justice that details multiple prosecutions they have brought 
against non-citizens who cast votes illegally, and it is a 
rather lengthy list.
    While the successful prosecution is proof this type of 
election fraud is taking place, they represent a small fraction 
of a larger problem. Our criminal justice system is not well 
equipped to prevent election fraud.
    Inadequate processes make fraud difficult to detect. Even 
when there is evidence of a problem, the cases can be difficult 
to prove. Investigations are met with resistance and 
recalcitrant witnesses. Faced with limited resources and 
competing demands, prosecutors often, in fact frequently, do 
not pursue cases even when evidence suggests there may be a 
violation. Consequently, enforcement of violations after the 
fact is problematic and infrequent.
    Unfortunately, our current procedures also make it 
difficult to stop voting by non-citizens before it occurs. In 
most states the process amounts to an honor system, failing to 
recognize that we cannot rely on the honor of those among us 
who are inclined to commit fraud, especially in cases where the 
law has already been broken by individuals who choose to stay 
in the United States illegally.
    The Help America Vote Act of 2002 required the federal 
registration form to include a box prospective registrants 
would have to check to certify that they are a citizen. If the 
person indicates they are not a citizen, they are not to 
complete the form. If the box is not checked, the form is 
supposed to be returned to the applicant for completion.
    In practice, forms without the box checked are often 
processed, potentially registering non-citizens. Even when the 
box is checked, the election official is relying on the 
truthfulness of the certification and cannot verify it with any 
further documentation.
    A few weeks ago, a candidate for federal office was 
recorded advising an audience that they did not need papers to 
vote. This remark may have been impolitic, but it was not 
totally inaccurate. The fact is that it is possible to register 
and vote in this country without ever having to provide proof 
of citizenship.
    This is a problem, and it deserves thoughtful attention 
from this committee in order to explore possible solutions. Our 
first panel of witnesses today includes the Honorable Henry J. 
Hyde, Member of Congress, and the Honorable James R. Langevin, 
a Member of Congress.
    Welcome, to our distinguished fellow Members of Congress, 
and thank you for being with us today.
    Our second panel of witnesses today includes Ray Martinez, 
Vice Chairman, United States Election Assistance Commission; 
Patrick Rogers, attorney with Modrall Sperling, Roehl, Harris & 
Sisk in New Mexico; Paul Bettencourt, Tax Assessor-Collector 
and Voter Registrar, Harris County, Texas; and Wendy Noren, 
County Clerk, Boone County, Missouri. Welcome to our second 
panel of witnesses.
    Finally, on our third panel today, we have Dan Stein, 
president, Federation for American Immigration Reform; Daniel 
Calingaert, associate director, Center for Democracy and 
Election Management; Spencer Overton, professor at the George 
Washington University Law School, and Christine Chen, executive 
director, Asian Pacific Islander American Vote. Welcome to our 
third panel, and I thank each of you for being with us today.
    I might comment that we have tried to make this panel of 
witnesses as balanced as possible. This is the first time in 
memory that I ever participated in a hearing where we had an 
equal number of Democrats and Republicans, and that includes my 
years here when the Democrats were in control. But we are 
trying to be fair with this and granted an equal number on all 
sides.
    At this time, I would like to recognize the Ranking Member, 
Ms. Millender-McDonald, for any opening remarks she may have.
    Ms. Millender-McDonald. Thank you, Mr. Chairman, and good 
morning to you, to our colleagues, to the witnesses and to our 
guests.
    Mr. Chairman, let me just first say, thank you so much for 
having the requisite numbers that are parallel to the majority 
as well as the minority. I do think that you were fair, and 
that is why you have the title of honorable.
    Although the 2004 elections have passed into history, many 
questions are still unanswered, and important electoral issues 
need to be addressed. Our country's electoral process is not 
perfect. Improvements to elections administration still need to 
be made, and I think the focus of this hearing is not at the 
top of the list of issues that we should be discussing.
    With all the problems that plagued the 2004 election, why 
are we focusing on an issue that has only been discussed 
through a few anecdotal cases at best. Of course, anyone who 
breaks the law by attempting to register to vote illegally 
should be prosecuted, but this policy of burdening our Nation 
with troublesome proof of citizenship requirements is not the 
direction our committee or the country should be heading. 
Instead, we should be looking at the real fraudulent acts of 
past Federal elections.
    Voting intimidation, threats and other forms of voter 
suppression are still disenfranchising citizens of this 
country. If we are to discuss voter fraud, we should include 
these issues which are paramount to many Americans, especially 
people of color.
    Shortly after the 2004 elections, this committee held a 
hearing in Ohio which was at the epicenter of the 2004 
Presidential Election. We heard testimony from witnesses on 
many of the problems associated with that election. Among the 
extensive list of problems were long lines at polling stations, 
with the elderly sometimes fainting and having to leave, a 
shortage of machines, malfunctioning voter machines, 
misinformed poll workers and over 100,000 provisional ballots 
going uncounted. These are the issues which we should be 
focusing on in our hearings.
    The committee also held a hearing in Wisconsin where we 
addressed many of the same issues being raised today. Witnesses 
testified that an estimated 23 percent of elderly persons do 
not have a Wisconsin drivers license or photo ID. Are we to 
deny these citizens their right to vote, a right that they have 
exercised for decades merely because they lack a photo ID?
    It has also been suggested that the populace would use a 
passport as proof of citizenship. However, according to the 
State Department, only 23 percent of Americans possess a 
passport and the cost of obtaining one is nearly a hundred 
dollars. This amount may not sound much for those of us who are 
in Congress but my constituents in Watts and other places that 
are impoverished continually struggle to pay just for housing, 
medicine and gas to drive to work.
    My constituents do not need this additional expense but 
what they do need, Mr. Chairman, is an increase in the minimum 
wage, a bill that the majority in Congress will not pass out 
and have the President sign, which is such an important bill. 
But requiring a government-issued photo ID to register and vote 
is not the answer to this perceived problem.
    I believe the Help American Vote Act, HAVA, strikes the 
correct balance between voter access and voter integrity. This 
committee worked tirelessly to enact HAVA as a solution to the 
problems associated with the 2000 election. As a result of 
HAVA, $3 billion was appropriated to States to improve the 
voting process. HAVA, in my opinion, is one of the greatest 
bipartisan efforts this Congress has produced.
    The question of citizenship was addressed head on in HAVA 
whereby Congress mandated that the mail-in registration form 
include a box and ask the question, are you a citizen of the 
United States of America? If your answer is no, your form is 
rejected. If your answer is yes and you are discovered not to 
be a citizen, you are subject to Federal prosecution.
    There are laws already on the books to prosecute those who 
knowingly and willfully sign the affidavit that they are 
citizens of the United States and yet they are not. And so 
penalties are stiff and have successfully served as a deterrent 
to misrepresentation.
    We must say, though, as in the State of Ohio, 2 or 3 weeks 
out, they brought in State law that trumped Federal law, and 
States must follow Federal law in conducting Federal elections.
    There are other aspects of the Federal law in place to 
prevent fraud. As the clearinghouse of all matters relating to 
election administration, the Election Assistance Commission, 
EAC and its commissioners have researched the issues of voting 
fraud and voting intimidation and believe that the 
establishment of statewide voter registration lists will curb 
several voting irregularities that occurred during the 2000 and 
2004 Presidential Elections. Such requirements went into effect 
this January of 2006, calling on each State's chief election 
officer to implement a uniform and centralized statewide 
computerized voter registration list that is administered at 
the State level, contains the names and registration 
information of every legally registered voter in the State and 
which assigns a unique identifier to each legally registered 
voter in the State. This requirement is designed with the dual 
goal of improving the accuracy of voting lists while also 
producing the possibility and reducing the possibility of 
fraud.
    We know, Mr. Chairman, about Kentucky and Michigan and how 
they have become models for the centralized voting registration 
data base. So I am very troubled by the increase in legislative 
initiatives that would require government-issued photo 
identifications at voting precincts.
    The Federal Elections Commission noted that in 1997 and 
reported to Congress that photo identification entails major 
expenses both initially and maintenance. Such a requirement 
also presents an undue and potentially discriminatory burden on 
citizens in exercising their basic rights to vote.
    Such legislation would impose an economic burden on the 
American voter. If you live in America's fortunate half, the 
half with the household income that is above the median of 
$44,000 a year, you may find it easier to get a passport. 
However, it is possibly inconceivable that some Americans are 
too poor, as in the case of my district, to even own an 
automobile, and there are some people that are so disconnected 
from the mainstream that they have no drivers license or 
similar identifications to allow access to commercial air 
flights or checking accounts.
    Nevertheless, the entire Nation witnessed this common 
phenomenon as thousands of people were not able to flee New 
Orleans in the face of Hurricane Katrina because they were too 
poor to leave. We should not erect more barriers for those who 
have lost everything when it comes to this piece of 
legislation. Let us not forget Hurricanes Katrina and Rita 
forced nearly 700,000 citizens from their Gulf Coast States 
last year.
    What about the victims who not only lost houses and jobs, 
but the very documentation to prove who they are and their 
citizenship and their birth certificates all have been washed 
away? What about Americans not born in hospitals and by 
midwives such as the elderly African-Americans who might have 
not been issued birth certificates?
    We must strengthen voting rights and work to get the 40 
percent of registered voters who did not participate in the 
last election to become participants instead of erecting new 
barriers to reducing the number of voters. In fact, we should 
pass the Voting Rights Act that has been snatched from our 
schedule.
    Our efforts should be spent on enfranchising voters and 
strengthening democracy. I believe that voter fraud is wrong, 
but we should not punish Americans, especially the elderly, the 
disabled or the poor with overly cumbersome requirements that 
will do nothing to increase civic participation. Instead, we 
should be devoting our resources to prosecute the rampant 
illegal intimidation tactics that continue to surface with each 
election cycle.
    So, Mr. Chairman, as I have done in the past, I will 
continue to fight to make our voting system one that is free 
from flaws and defects. Even if one voter is disenfranchised, 
that is one voter too many.
    I look forward to our colleagues' testimony, Mr. Chairman, 
and again, I thank you for allowing both the majority and the 
minority to have the requisite number of witnesses. Thank you 
so much.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 28965.001
    
    [GRAPHIC] [TIFF OMITTED] 28965.002
    
    [GRAPHIC] [TIFF OMITTED] 28965.003
    
    The Chairman. I thank the gentlewoman for her statement. 
This is not a debating society. I would love to respond to part 
of it.
    Let me say that my ideal is that every person who is 
qualified to vote should be enabled to and encouraged to vote. 
Every person who casts a legal ballot also has a right to be 
assured that their vote counts, and it is not diluted by people 
who vote illegally. And so the goal is to ensure as many people 
as possible vote but also to ensure that they are voting 
legally.
    I am pleased to recognize Mr. Doolittle for an opening 
statement.
    Mr. Doolittle. Mr. Chairman, in the interest of hearing 
from our witnesses, I will forego the opening statement.
    The Chairman. I appreciate that, and thank you.
    Next, we turn to Mr. Brady.
    Mr. Brady. No statement.
    The Chairman. Mr. Brady passes.
    Mr. Ney.
    Mr. Ney. I don't, but I think it is good to have the 
hearing.
    Also, when Congressman Hoyer and I put together HAVA, we 
debated these issues for about a year and a half about IDs or 
what works or what doesn't and some of the concerns have been 
since then to take a look at HAVA where it could be changed or 
altered, and there has always been the concern, too, of opening 
up to a hundred other issues, but that is the process.
    Again, these are pretty thoroughly debated, but I think it 
is pretty important to air this out.
    The Chairman. Thank you.
    Ms. Lofgren, do you have a statement?
    Ms. Lofgren. I am anxious to get to our witnesses who have 
been patient and I know have many things to do today. I think 
that the ranking member's comments are well taken, and 
certainly today it is a felony to register to vote if you are 
not eligible. And I think I am hardpressed to see why making a 
felony that provides 5 years in prison is insufficient. As we 
proceed, we need also to balance the impact of this proposed 
law on Americans who want to vote and Americans who are really 
very poor and don't have the requirements. It is absolutely 
clear to me that those who would be--who would lose if this 
bill were to be enacted are Americans who lack the credentials, 
the paper credentials, and we can talk about some of the 
examples that have just come to our attention; elderly people, 
the first Americans, Native Americans who in many cases are not 
born in hospitals but at home and lack the requirements that 
you might find than if you were an affluent person.
    I think we very carefully need to consider, while I am sure 
it is not intended by the author, the elitism, that assumptions 
that are made here are misplaced and the impact on those who 
want to participate and have a right to participate in their 
American Government. And this coming on our failure to proceed 
yesterday on the Voting Rights Act that was reported out of the 
Judiciary Committee by a wide bipartisan margin, the failure of 
the House to take up the Voting Rights Act that is so essential 
to protect the rights of Americans who are minorities and who 
tend to be poor and without power, that failure coupled with 
this hearing today that once again would ignore the situation 
of the impoverished is very disturbing to me. And I hope we can 
touch on that as the hearing progresses.
    And I thank the Chairman for allowing me to make that 
statement and pose those issues for our witnesses.
    The Chairman. Thank you for your comments. I can assure you 
that I believe everyone in the Congress realizes and shares in 
the belief in the importance of the Voting Rights Act, and I 
also look forward to it coming to the floor some time in the 
near future.
    With that, we turn to our first panel, Representative Hyde 
and Representative Langevin. We will begin with the senior 
statesman of the House of Representatives, Congressman Hyde.

   STATEMENT OF THE HON. HENRY J. HYDE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Hyde. Thank you, Mr. Chairman. I want to congratulate 
you----
    The Chairman. Turn on your microphone.
    Mr. Hyde. The more silent I am, the better I am.
    Mr. Chairman, thank you very much, especially for your 
extraordinary balancing act, lead-off with two witnesses both 
in wheel chairs. How you arranged that, I don't know. Well 
done, I must say.
    Years ago, there was an old saying: Louie Armstrong was a 
great musician out of New Orleans and someone said Louie, what 
is jazz? He said, if you have to ask, you'll never really know. 
And that answer holds true for this issue. If you don't think 
there is a problem with 12 million--and nobody knows how 
accurate that number is--illegal aliens roaming the country, if 
you don't think it presents a problem about non-citizens 
voting, then I guess nothing will convince you. To me, the 
potential and the reality is very real. The Constitution says a 
citizen shall vote, and we have an awful lot of non-citizens 
who are voting and who do vote.
    I have a prepared statement which I will abbreviate and 
then make a couple of more comments on that subject. But since 
states have made it easy for ineligible persons to register to 
vote, voter registration forms require only an attestation of 
citizenship. No proof of citizenship is required under our 
current honor system.
    There are many forms of vote fraud which I am sure you are 
all familiar with, including spoiled ballots, vote buying, 
illegitimate voters, both dead and alive, ballot boxes found 
after votes have been counted, ballot boxes never found and 
non-citizen voting.
    In the last 3 years, the U.S. Department of Justice has 
prosecuted voter fraud cases in several States, including 
Alaska, Colorado, Florida, Illinois, Kansas, Kentucky, 
Louisiana, Missouri, New Hampshire, North Carolina, 
Pennsylvania, West Virginia and Wisconsin.
    As an example, on July 15th, 2004, 15 non-citizens were 
charged by the Department of Justice with voting in various 
elections beginning in 1998 in south Florida, and four of these 
defendants were also charged with making false citizenship 
claims in violation of Federal law. Ten defendants were 
convicted. One defendant was acquitted, and charges against 
four defendants were dismissed upon the government's motion.
    I have this bill, H.R. 4844, the Federal Election Integrity 
Act of 2006, that would help guard against such fraud. It would 
amend the motor voter bill to require States to demand proof of 
citizenship for voter registration or reregistration in Federal 
elections. My bill would also require current official photo ID 
when both registering and voting. No State would be exempt from 
these requirements. States that allow citizens to register to 
vote at the polls would be required to demand proof of 
citizenship when voting. States that do not require voter 
registration at all would still be required to ask for proof of 
citizenship and a current legal photo ID at the polls.
    Last year I polled my district to see if voters are willing 
to produce proof of citizenship when registering and a current 
legal photo when voting. My constituents overwhelmingly 
supported legislation with these simple requirements. I think 
the country overwhelmingly supports fair and legal elections. 
Our voting rights were won by Americans who were willing to die 
for the freedom to elect our representatives, and we have a 
duty to safeguard that freedom. If we don't, our elections 
become meaningless.
    Identity theft is a very popular crime these days, and it 
fits right in with fraudulent voting. A recent study by the 
Chicago Tribune--we all used to say, when I die, I want to be 
buried in Chicago, so I can stay active in politics. I say that 
with tongue in cheek because I think Mayor Daley has done a 
good job, and I don't mean to be too critical of him.
    But the Chicago Tribune, December 4th of 2004, made a 
survey, and they found 186,000 dead people had registered to 
vote.
    There is an article in the Texas Law Review, which I have, 
with a lot of statistics. I won't bore you with them, but it is 
a real problem. The law is that a citizen should vote. Most 
everybody has a drivers license. The law can also provide 
another photo ID of an official character at no cost to the 
registrant because the tradeoff for having elections of 
integrity as against fraudulent voting is worth whatever the 
cost would be.
    So this bill simply addresses one aspect of the problem, 
but our elections are what democracy is all about, and we ought 
to do everything we can to avoid the abuse of the democratic 
process. So I thank you for listening and considering this 
important issue, and I am sure it will receive thorough 
consideration. So I will terminate my statement now with 
thanks.
    The Chairman. I thank you for your comments and your 
statement, and without objection, the article you referred to 
from the Texas Law Review will be placed in the record without 
objection. So ordered.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 28965.004
    
    [GRAPHIC] [TIFF OMITTED] 28965.005
    
    [GRAPHIC] [TIFF OMITTED] 28965.006
    
    [GRAPHIC] [TIFF OMITTED] 28965.007
    
    [GRAPHIC] [TIFF OMITTED] 28965.008
    
    [GRAPHIC] [TIFF OMITTED] 28965.009
    
    [GRAPHIC] [TIFF OMITTED] 28965.010
    
    [GRAPHIC] [TIFF OMITTED] 28965.011
    
    [GRAPHIC] [TIFF OMITTED] 28965.012
    
    [GRAPHIC] [TIFF OMITTED] 28965.013
    
    [GRAPHIC] [TIFF OMITTED] 28965.014
    
    [GRAPHIC] [TIFF OMITTED] 28965.015
    
    [GRAPHIC] [TIFF OMITTED] 28965.016
    
    [GRAPHIC] [TIFF OMITTED] 28965.017
    
    [GRAPHIC] [TIFF OMITTED] 28965.018
    
    [GRAPHIC] [TIFF OMITTED] 28965.019
    
    The Chairman. Next, we are pleased to recognize 
Representative Langevin.

 STATEMENT OF THE HON. JAMES R. LANGEVIN, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF RHODE ISLAND

    Mr. Langevin. Thank you, Mr. Chairman and Ranking Member 
Millender-McDonald. I first want to begin by thanking you----
    The Chairman. Could someone move the microphone closer?
    Mr. Langevin. I want to thank you first of all for holding 
this hearing and for going to extraordinary lengths to make 
sure that the panels are balanced, and I echo the comments of 
my friend and colleague Chairman Hyde. You went to the 
extraordinary effort to make sure you had two members in chairs 
testifying. That is what I call going above and beyond the 
call.
    Mr. Chairman, Ranking Member Millender-McDonald and 
esteemed colleagues on the House Administration Committee. I do 
appreciate your invitation to testify today. I have been proud 
to work with members of the committee on matters of great 
significance, from election reform to continuity of Congress, 
accessibility of the Capitol complex, and I am pleased to join 
you today as both a member of Congress and as a former 
Secretary of State to share my experiences about our Nation's 
election system.
    I think it might even be appropriate on this issue to 
invoke the words of another man in a chair, all we have to fear 
is fear itself.
    When I was elected Secretary of State, Rhode Island had the 
oldest voting equipment in the Nation. Beginning in 1993 when I 
chaired a special legislative commission on election reform as 
a State representative, and then, as Secretary of State, I 
worked with my colleagues in the legislature, the State board 
of elections, local canvassing authorities and the public to 
investigate voter problems throughout the State and develop an 
effective solution.
    We successfully upgraded our election equipment, 
significantly reducing our error rates and making our polling 
places and machines accessible to people with disabilities.
    I also wrote the law which implemented and brought Rhode 
Island into compliance with the requirements of the National 
Voter Registration Act, popularly known as motor voter, which 
reduced certain longstanding obstacles to registration. These 
changes were significant, and we ultimately met our goal of 
increasing the number of registered voters in Rhode Island by 
nearly 60,000 between 1993 and 2000. That is significant given 
the facts that we only have just over 660,000 voters in Rhode 
Island.
    Now our efforts made Rhode Island a model for electoral 
participation and accessibility, and I was pleased to help 
translate those successes to the national level by 
participating in the development of the Help America Vote Act, 
a great bipartisan effort of this committee and the most recent 
success story in Congress's long history of expanding voting 
opportunities to Americans.
    Congress should be proud of its record of removing barriers 
and increasing the opportunity of all Americans to vote. Though 
it took us far too long, Congress guaranteed the right to vote 
to citizens whose only disqualification was the color of their 
skin. It opened polling places to the disabled. It extended the 
franchise to Americans living overseas. It has enabled all 
citizens in our mobile society to register and reregister with 
ease. It did all of this on a bipartisan basis. It did this 
while maintaining the integrity of our elections.
    Over the past five decades Congress has never seriously 
entertained legislation that would reduce participation. 
Regrettably, H.R. 4844 would have that effect and mark a 
dangerous departure from past efforts. Should this bill become 
law, fewer eligible citizens will be able to vote.
    It is easy, Mr. Chairman, to imagine individuals who would 
be disenfranchised under this bill. It could be a lance 
corporal in Tikrit whose parents failed to include a birth 
certificate in her duffle bag. It could be the Mississippi 
sharecropper born in his family home in a county that had no 
interest in recording his birth.
    It could be a fisherman in St. Bernard Parish unable to 
find a public record of his life in the wake of Katrina's 
destruction. And it could be a naturalized citizen who, because 
of a government clerk's error, cannot obtain a copy of his 
naturalization papers. And maybe it is an elderly Rhode Island 
resident who leaves her home of 50 years to enter an assisted-
living facility, or maybe an 18-year-old student registering to 
vote for his first election who neglected to bring his birth 
certificate with him.
    The list could go on and on, Mr. Chairman. However, all of 
these people have one thing in common, once they are turned 
away from registering because of lack of documentation, it is 
unlikely that they will ever return. They will drop out of the 
Nation's election system because it failed them.
    Let us be very clear, passage of H.R. 4844 would have an 
adverse impact on how our elections are administered as well as 
a detrimental effect on voter participation. Not only would the 
bill make it harder for nearly every American citizen to 
register to vote, but it would also add massive compliance 
requirements for election officials.
    How many other eligible citizens would not vote because of 
the barriers created by this bill? Is it hundreds of thousands? 
Is it millions? Do the sponsors know? How much fraud, if any, 
will this actually deter? From my experience in Rhode Island 
and other stories in the public record, the type of fraud that 
this bill is intended to deter is virtually nonexistent. Do the 
sponsors really have evidence to the contrary?
    And if the means or justification of this bill is to 
prevent non-citizens from voting, it is unnecessarily 
duplicative since Federal and State penalties already exist in 
this area and should be enforced. Under the law, fraudulent 
voter registration is a felony punishable by 5 years in prison.
    So as the committee considers this bill, one simple 
question matters, is Congress willing to disenfranchise 
possibly millions in an effort to address the elusive fraud 
that sponsors fear?
    Mr. Chairman, there are real threats in the integrity of 
our election system, and this bill addresses none of them. 
There are new registrants who, through no fault of their own, 
will not appear on the voting rolls because the State is unable 
to properly match the registrations with other public records. 
There are millions of eligible voters whose votes will not be 
counted because of unduly restrictive provisional ballot rules, 
and there are thousands of voters who are not being given the 
opportunity as required by law to register at public assistance 
agencies, and similar numbers whose registrations are not 
transferred from the motor voter vehicle department in a timely 
manner. Why are those problems not being addressed?
    In closing, Mr. Chairman, I would like to return to a point 
that I made earlier in my statement. This Congress has wisely 
never passed election legislation which did not have 
substantial bipartisan support or which restricted electoral 
freedoms. Unfortunately, this hearing suggests that this fine 
tradition may be endangered.
    Our election laws should not be a matter of political 
calculation but a preservative of our most precious right, the 
right to vote.
    Thank you, Mr. Chairman.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 28965.020
    
    [GRAPHIC] [TIFF OMITTED] 28965.021
    
    The Chairman. I thank both of you gentlemen for your 
statements. I very much appreciate your presence here and the 
wisdom you have shared with us. I will explain for the benefit 
of the audience that we normally do not have questions of 
Members of Congress who appear, because they are here all the 
time, and we can question them any time. But I am sure you will 
encounter many questions from not just this panel, from our 
colleagues about this issue.
    Thank you both very much for being here, and I thank you 
for your testimony.
    Ms. Millender-McDonald. Thank you both so very much.
    The Chairman. I invite our second panel of witnesses to 
come to the table.
    Ms. Lofgren. Mr. Chairman, do we have written testimony 
from the witnesses? I didn't get it?
    The Chairman. Yes, we do. I am sorry if you did not.
    Ms. Lofgren. Maybe I can get it from the staff.

   STATEMENTS OF RAY MARTINEZ, VICE CHAIRMAN, UNITED STATES 
   ELECTION ASSISTANCE COMMISSION; PATRICK ROGERS, ATTORNEY, 
  MODRALL, SPERLING, ROEHL, HARRIS & SISK, P.A. LAW FIRM, NEW 
  MEXICO; PAUL BETTENCOURT, TAX ASSESSOR-COLLECTOR AND VOTER 
  REGISTRAR FOR HARRIS COUNTY, TEXAS; AND WENDY NOREN, COUNTY 
                 CLERK, BOONE COUNTY, MISSOURI

    The Chairman. Our second panel consists of Mr. Martinez, 
Vice Chairman of the Election Assistance Commission; Mr. 
Rogers, an attorney with Modrall Sperling, Roehl, Harris & Sisk 
in New Mexico; Paul Bettencourt, the Tax Assessor-Collector and 
Voter Registrar from Harris County, Texas; and Wendy Noren, the 
County Clerk from Boone County, Missouri.
    We will hear your testimony in that order, and I call upon 
Mr. Martinez for his testimony.

                   STATEMENT OF RAY MARTINEZ

    Mr. Martinez. Thank you, Mr. Chairman.
    Good morning, Madam Ranking Member.
    I am honored to be before this distinguished committee once 
again, Mr. Chairman.
    After the 2000 Presidential Election, several important 
national commissions and task forces were created to study the 
problems in election administration. One such commission whose 
recommendations greatly influenced congressional views on 
election administration was the Commission on Federal Election 
Reform of 2001, cochaired by former Presidents Jimmy Carter and 
Gerald Ford. Like other similar entities, the Carter-Ford 
Commission recognized the essential role of State and local 
governments in the process of election administration.
    Speaking on the balance of authority in the U.S. 
Constitution, the commission's final report stated, quote, The 
framers recognized the practical need to rely on local 
administration and State oversight, end quote.
    In passing such important voting rights laws, such as the 
Uniform and Overseas Citizen Absenteeism Voting Act of 1996, 
the National Voter Registration Act of 1993 and the Help 
America Vote Act of 2002, Congress carefully considered this 
balance of responsibility and appropriately gave significant 
discretion to State governments in implementing these important 
laws.
    As an EAC commissioner, I have strived to fully support 
this carefully crafted balance of State, Federal 
responsibilities. Prior to joining the EAC, I operated a solo 
law practice in Austin, Texas, that focused almost exclusively 
on representation on administrative law matters of county and 
local governments. Indeed, most of my professional career 
throughout the past 15 years has been dedicated to serving the 
needs of State and local jurisdictions. That is especially true 
during my term on the EAC.
    As an EAC commissioner, I have diligently worked to support 
this carefully crafted balance of Federal-State 
responsibilities. The EAC has made it a priority to build a 
genuine and lasting partnership with officials at the State and 
local level, and we have actively sought their essential input 
to guide the work of our agency.
    Moreover, the EAC places great value in the productive 
working relationship we have developed with such influential 
organizations as the National Association of Secretaries of 
State.
    In short, Mr. Chairman, I firmly believe that the key to 
success from my agency is to find ways to support and enhance 
this balance of responsibilities over election administration 
that Congress has so repeatedly endorsed when passing laws such 
as NVRA and HAVA. However, immediately after my confirmation by 
the United States Senate to the EAC, I took an important oath 
to uphold the Constitution and the laws of the United States. 
While the responsibility to administer elections is 
appropriately reserved to State and local governments, it is a 
well-established matter of law that Congress possesses the 
constitutional authority to regulate elections for Federal 
offices.
    By passing significant legislation like HAVA, NVRA, 
Congress has exercised this authority. My obligation as an EAC 
commissioner, Mr. Chairman, is to implement these laws in the 
most deliberative and reasonable manner and with no regard to 
any partisan or political agenda.
    When any matter is brought before the EAC which in my view 
would significantly alter this carefully crafted balance of 
State-Federal authority, I believe I have not only a 
responsibility but an obligation to consider the interest not 
only of that particular State that requests such a change but 
the implication of that change to the entire country.
    In the important matter pertaining to Arizona's recent 
request that the EAC amend its State-specific instructions to 
require documentary proof of citizenship for any applicant 
using the NVRA Federal form, the EAC was presented with just 
such a scenario. In other words, in carefully considering 
Arizona's request to condition acceptance of the Federal form 
upon documentary proof of citizenship, we considered relevant 
statutory language, such as the requirement contained in NVRA 
that each State shall accept and use the national mail-in voter 
registration application as prescribed by the EAC.
    To the extent that there may have been any ambiguity in the 
statutory language, such as what Congress meant by specifically 
disallowing any notarization or other formal authentication 
with the Federal form, we as an agency turned to legislative 
history and congressional intent.
    And yet, Mr. Chairman, aside from statutory language, aside 
from legislative intent, it is also true that the EAC must also 
consider the practical effect of granting Arizona's change and 
the impact that decision would have upon the express findings 
put forth by Congress in passing NVRA. That is, if Arizona is 
allowed to condition the Federal form upon documentary proof of 
citizenship, what is to prevent other States from doing the 
same with other eligibility qualifications?
    For example, if hypothetically 15 States were to follow 
Arizona's lead in requiring documentary proof of citizenship, 
another 10 States requiring documentary proof of age, and yet 
another handful of States requiring affirmative documentary 
proof of non-felon status, would this not result in a new 
patchwork of legislation for Federal elections? And if so, 
would this not defeat one of the central and most important 
purposes of NVRA, to make it easier for eligible citizens to 
participate in our great democracy.
    In closing, Mr. Chairman, I realize that it is my duty in 
carrying out my responsibilities as an EAC commissioner to keep 
my personal hat separate from my professional one, and yet at 
times this is difficult to do. Right now, living in a small 
rural town in Texas, there is an 86-year-old World War II 
veteran who was born on a ranch in south Texas, far away from 
hospitals, far away from birth certificates and far away from 
documentary proof of citizenship.
    He dutifully and proudly served his country, his community 
and his family with honor. He has voted in every election that 
I can remember, and I know this because he often took me with 
him to vote as a young boy. This person is my father.
    By conditioning the fundamental to right upon government 
documents that many citizens may not readily have available or 
in some cases that may be impossible or difficult to obtain is 
to fundamentally alter the delicate balance of Federal-State 
responsibility that has been so carefully crafted through 
important laws like NVRA.
    I have nothing but the highest regard for election 
officials such as Secretary Jan Brewer and my friend and fellow 
Texan, Paul Bettencourt, who worked tirelessly to implement the 
laws passed by the good people of their respective 
jurisdictions. However, when such significant matters as this 
come into play, the EAC must consider the implication of its 
decisions not just in regard to one important State or 
jurisdiction but in the full context of the entire country.
    Moreover, since NVRA represents the only regulatory 
authority that has been granted to the EAC, we ought to 
exercise this authority with extreme caution in a fully 
deliberative and measured fashion and with no regard to 
political and partisan agendas today. And I pledge to you and 
this committee, Mr. Chairman, I will continue to do just that 
as a commissioner. I thank you for the time, and I look forward 
to your questions.
    [The statement of Mr. Martinez follows:]
    [GRAPHIC] [TIFF OMITTED] 28965.022
    
    [GRAPHIC] [TIFF OMITTED] 28965.023
    
    The Chairman. Thank you for your testimony.
    I received a note that we are likely to have votes on the 
House floor 12:15 to 12:30, so we will do our best to conclude 
this hearing by that time, if we can. If we can't, we are going 
to ask you to stay around and come back after the votes.
    But I do want to remind everyone, we would like to have you 
limit your testimony to 5 minutes if you can, and if your 
testimony is longer than that, it will be submitted for the 
record regardless. But please summarize it in that case.
    Next, we are pleased to go to Mr. Rogers, an attorney with 
Modrall Sperling, Roehl, Harris & Sisk in the great State of 
New Mexico.

                  STATEMENT OF PATRICK ROGERS

    Mr. Rogers. My name is Pat Rogers, I am an attorney in 
private practice in Albuquerque, New Mexico, the Modrall law 
firm. I am also a member of the Board of Directors--I am also a 
member of the Board of Directors of the American Center for 
Voting Rights and Legislative Fund. I am here today because I 
am concerned about fraud in the registration and voting 
process, and I am concerned that legal voters have been 
disenfranchised by ballots illegally and fraudulently cast in 
our State and Federal elections.
    I was involved in the battles in New Mexico in 2000, and I 
was also involved in a host of lawsuits in 2004 concerning the 
election process, including voter ID as well as ballot access 
issues.
    Presently, I am counsel to three individuals in a pending 
Federal suit in which the ACLU has challenged the 
constitutionality of the City of Albuquerque's photo ID 
requirements. ACVR has requested amicus status, and I am 
counsel to ACVR in that capacity as well.
    In New Mexico, the issue of non-citizens voting is not a 
new one. There was a Senate investigation concerning the Senate 
election of 1952. The conclusion from that report noted that 
illegal aliens had registered and voted. The subcommittee 
suggested that the registration system was so loose and 
ineffective that it was an invitation to fraud and dishonesty 
in elections.
    The subcommittee concluded that the registration laws must 
be strictly enforced to encourage full participation by the 
citizens and to readily determine the qualifications of those 
who present themselves to vote on election day.
    I am not here today and I am not in a position to quantify 
or even begin to quantify the magnitude of the problem. 
However, I am in a position to assure you in the strongest 
terms possible that fraudulent registration and fraudulent 
voting is a problem.
    Attachment one to my written comments is a new voter 
identification card of a woman named Leticia Armijo. Ms. Armijo 
carries a valid Green Card, but she was pressured into signing 
a voter registration while she was in line for government 
assistance shortly before the 2004 election.
    Ms. Armijo has not voted because it is not lawful to do so, 
but it is clear beyond a reasonable doubt that other persons 
who were also in line and have also been registered by these 
same people may not be so concerned about the fidelity to our 
Nation's election laws.
    In the pending suit, I represent Dwight Adkins who applied 
to intervene in the suit because, in 2004, his vote was stolen. 
He was not allowed to vote because someone had appeared at the 
polling place in his place and voted fraudulently. He was 
allowed to cast a provisional ballot, but that was not allowed 
because they explained to him he had already voted. Rosemary 
McGee of Albuquerque suffered the same fate. An additional 
client in the proceeding is Glen Stout, who is an Albuquerque 
Police Department officer. His 13-year-old son was fraudulently 
registered to vote prior to the 2004 election by an ACORN 
employee.
    In the past few days, as Mr. Martinez noted, a Federal 
judge in the pending Arizona lawsuit denied TRO and reaffirmed 
the critical nature of the right to vote and the need to assure 
eligibility to vote. The judge said: Determining whether an 
individual is a United States citizen is of paramount 
importance when determining his or her eligibility to vote.
    In fact, the NVRA, motor voter, repeatedly mentions that 
its purpose is to increase registration of eligible citizens. 
Providing proof of citizenship undoubtedly assists Arizona in 
assessing the eligibility of applicants. Arizona's proof of 
citizenship requirement does not conflict with the plain 
language of NVRA.
    I would like to speak very briefly to H.R. 4844. It appears 
to be a significant step forward to address the cynicism, 
skepticism and fraud that keep many American citizens out of 
the voting booth. Requiring a person to identify themselves 
with photo identification before casting a ballot is something 
that enjoys very broad public support.
    I would submit to you that any steps Congress might take to 
ensure and assure voters and potential voters that only 
citizens and registered voters are allowed to vote is 
important, not just for the integrity of the vote itself but 
for the increasing numbers of voters who are skeptical or 
cynical about the honesty and fairness of our elections.
    I believe that the increased confidence in the system will 
establish public confidence, and I believe that elections that 
are fair and honest will significantly increase participation.
    Thank you.
    [The statement of Mr. Rogers follows:]
    [GRAPHIC] [TIFF OMITTED] 28965.025
    
    [GRAPHIC] [TIFF OMITTED] 28965.026
    
    [GRAPHIC] [TIFF OMITTED] 28965.027
    
    [GRAPHIC] [TIFF OMITTED] 28965.028
    
    [GRAPHIC] [TIFF OMITTED] 28965.028
    
    [GRAPHIC] [TIFF OMITTED] 28965.030
    
    [GRAPHIC] [TIFF OMITTED] 28965.031
    
    [GRAPHIC] [TIFF OMITTED] 28965.032
    
    [GRAPHIC] [TIFF OMITTED] 28965.033
    
    [GRAPHIC] [TIFF OMITTED] 28965.034
    
    [GRAPHIC] [TIFF OMITTED] 28965.035
    
    [GRAPHIC] [TIFF OMITTED] 28965.036
    
    [GRAPHIC] [TIFF OMITTED] 28965.037
    
    [GRAPHIC] [TIFF OMITTED] 28965.038
    
    [GRAPHIC] [TIFF OMITTED] 28965.039
    
    [GRAPHIC] [TIFF OMITTED] 28965.040
    
    [GRAPHIC] [TIFF OMITTED] 28965.041
    
    [GRAPHIC] [TIFF OMITTED] 28965.042
    
    [GRAPHIC] [TIFF OMITTED] 28965.043
    
    [GRAPHIC] [TIFF OMITTED] 28965.044
    
    [GRAPHIC] [TIFF OMITTED] 28965.045
    
    [GRAPHIC] [TIFF OMITTED] 28965.046
    
    [GRAPHIC] [TIFF OMITTED] 28965.047
    
    The Chairman. Thank you very much. Thank you for keeping on 
time.
    Next we call on Mr. Paul Bettencourt, the Tax Assessor-
Collector and Voter Registrar from Harris County, Texas.

                 STATEMENT OF PAUL BETTENCOURT

    Mr. Bettencourt. Thank you, Mr. Chairman.
    The Chairman. You get to do two unpleasant things at one 
time.
    Mr. Bettencourt. In Texas, we also register all the 
vehicles there, too, so we have all three. I appreciate the 
levity of that.
    Again, for the members of the committee and the Chair, I am 
Paul Bettencourt, Harris County Tax Assessor and Voter 
Registrar. This is the same county that has the City of Houston 
in it, and I am honored to be here today because this is an 
important issue about citizenship requirements and also about 
photo ID that should be required for voter registration rolls.
    In Harris County, that roll totals nearly 1.9 million. That 
would make us approximately the 23rd largest State in the 
Union. And as the Chairman has mentioned, I do collect about 
$3.8 billion in taxes, but even as much as property tax bills 
are up in Harris County, I can hear from 50,000 constituents in 
one day alone on voter registration requirements.
    I was elected in 1998, and we have emphasized upgrading 
technology primarily due to the fact that this has been an area 
that at least in the Harris County Tax Office wasn't 
significantly put into effect before I got into the position I 
hold now. It is because the right to vote in my mind is 
sacrosanct.
    When we looked at the problem of just starting off and 
looking at trying to clean up a voter roll, we found that by 
comparing to other known governmental data points, such as 
Texas Department of Public Safety, United States Postal 
Service, NCOA records, Social Security, death index as well as 
Secretary of State's Voter Registration Roll, we found that we 
could delete and change 50,000 registrations in our first 
attempt to clean up the roll, and that was due to the fact that 
it has not been common for governmental entities to use other 
technology resources to be able to look at a problem that 
really not only affects voter registration but affects many 
other databases.
    We have been observed by organizations like NALEAO, Texas 
Secretary of State, and many others about these procedures, and 
we were happy to find that NALEO said that we had no public 
complaints about Harris County in the 2004 National Election.
    We try to cross train our people in the Harris County Tax 
Office to handle calls because our theory is, if you can get 
your voter registrar on the phone, you don't have any voter 
disenfranchisement. We answered 51,000 live calls on the 
election in 2004. Our response time was 3 to 4 seconds. We did 
that by cross-training over 200 people in our office, and we 
also have an automated call system that is supported by our 
County Clerk, who ably conducts elections; that is Beverly 
Kaufman in Harris County.
    We can't really tell you exactly the level of illegal 
voting and registration due to foreign nationals. We have three 
main checks that we have to rely on: First is the honor system. 
I think Chairman Hyde discussed that. Secondly, U.S. 
Immigration and Customs Enforcement checks before 
naturalization hearings, and that is a most efficient process 
to find anyone that has voted prior to their hearing. Thirdly, 
on a local level, my county district clerk and I exchange 
information on the jury wheel, because I think you will find 
how many people want to declare themselves not a citizen for 
jury service and turn around and attempt to vote. We, however, 
find a lot of people that do end up on our jury wheel because 
it is half drivers license and half voter registration that 
needed to be eliminated from the rolls because they are clearly 
non-citizens and shouldn't have registered in the first place.
    Clearly, part of the focus of the hearing is the Federal 
Election Integrity Act of 2006. We could have easy access from 
a local government with respect to a Federal citizenship list 
that we could use to confirm our voter registration rolls. In 
Texas, having that ability to vote was determined, in 1921, to 
require that the voters be U.S. citizens.
    Harris County is a very diverse place. We have 3.7 million 
residents; about 1.9, half are on the voter registration roll 
at this point. And 22 percent of our county's residents, nearly 
one in four, were born outside of the United States, and we 
believe over half of a million, by estimates from our surveys 
in the local area, are non-U.S. citizens. We don't really have 
any way of checking that at this point.
    The fact is that we have had as many as 35 people that, in 
a survey we did in 2005, were clearly foreign nationals that 
had applied to receive voter registration cards. And when you 
go through an election in a populous county like Harris--I will 
give you an example, we have a home rule city, Pasadena, it is 
our second largest. We have had several elections over the last 
2 cycles that have been decided by one or two votes, therefore 
every vote does count.
    We have gone through documented cases of Norwegian 
nationals voting, Brazilian citizens voting, et cetera, and 
what we believe the Federal Government could easily do is mount 
a project to combine 50 States' department of public safety 
records, many of which already include citizenship information. 
We can take that information that already has a photo ID and 
combine it with citizen records.
    In my office, I maintain a database of 7.1 million records, 
so I know that this is technically and operationally feasible, 
something we have been doing in the Harris County Tax Office 
for some time. And when you combine these records, you can make 
it transparent to the end user, specifically the voter, that 
the check has occurred because you may not have to apply for a 
passport, but you know that the people that have applied for 
passports have citizenship documentation on file, therefore 
that would not have to be repeated.
    Finally, just a quick comment on using photo ID. There is 
simply no reason, no supposition of fact that you shouldn't 
have a photo ID to vote. You have to do this to buy tobacco or 
alcohol in many States in the Union. You have to do it to board 
an airplane anywhere in this country, or, in most cases, using 
a credit card. People that do not have a photo ID can easily be 
afforded one for free by the government from many different 
points of contact; drivers license, voter registrar, et cetera.
    Without the Federal Government doing something in this area 
to ask for photo ID or for citizenship to be--which I believe 
is a fundamental right which should be a right granted to 
citizens, the right to vote--local registrars won't have the 
ability to stop this type of documented fraud.
    We are all aware of the argument that such a requirement 
will be a barrier or inconvenience to people that will attempt 
to vote, but with 21st Century technology, what we have proven 
at the Harris County Tax Office is that you can integrate this 
type of data and make it seamless to the voter, and this task 
can easily be done.
    Additional information is available on my Web site at 
hcvoter.net. And again, Mr. Chairman, I want to thank you for 
the committee's invitation and their time and indulgence.
    [The statement of Mr. Bettencourt follows:]
    [GRAPHIC] [TIFF OMITTED] 28965.048
    
    [GRAPHIC] [TIFF OMITTED] 28965.049
    
    [GRAPHIC] [TIFF OMITTED] 28965.050
    
    [GRAPHIC] [TIFF OMITTED] 28965.051
    
    The Chairman. And I thank you as well. The last person on 
the panel, Christine Chen, Executive Director with the Asian 
Pacific Islander American--wrong one, sorry.
    Ms. Noren. I am Wendy Noren.
    The Chairman. Sorry. Flipped the wrong page. Let's try it 
again.
    I am pleased to introduce Wendy Noren, the County Clerk 
from Boone County, Missouri.

                    STATEMENT OF WENDY NOREN

    Ms. Noren. I am glad you said Missouri. That is great. You 
must be from there because a lot of people say Missouri.
    I want to thank the Chair, and I do believe you made great 
efforts to try and get a balanced view on this, and it is an 
honor to be here. I have had 28 years of experience as an 
election official, starting since 1978, and when I started we 
had absolutely no ID requirements, people just showed up and 
voted. And as of now, I am in one of those States that is 
trying to struggle with the implementation of a strict photo ID 
requirement. I really don't believe in either one of those 
extremes. In fact, I agree when someone said, I think you got 
it pretty well right when you wrote HAVA. The problem is in 
election administration, we are constantly performing a 
balancing act between trying to prevent fraud and trying to 
ensure access to the polls, and this is not an easy balancing 
act to do.
    You know, if my only goal was to prevent fraud, if that was 
the only goal we had, we could do what we do with my dog, 
inject a microchip in them so we can identify everybody. My dog 
has got a microchip in him. Somebody steals him, you know, we 
have got it. It is registered. But that puts a chilling effect 
on people all over. I don't think anybody in this room wants us 
going that route. That would be a barrier to voting. So there 
is a balance we have to find.
    I can also tell you from my long experience in a swing 
county, in a swing State that these kinds of obstacles to 
voting and efforts to open up the process help and hurt fairly 
equally across party lines. While I often hear certain groups 
are going to benefit from this, certain groups are going to be 
hurt by this, I come from an area where I find the barriers to 
voting are almost equal throughout classes, throughout groups 
that come in and out of my county. It is a very mobile area.
    You know, I think we need to look at some of the people who 
are going to have access problems in getting a photo ID. We 
have mentioned the elderly. You know, it is very--it is not 
only expensive, it is time consuming. You can say we will give 
you a free photo ID but the underlying documents you have to 
pay for. I have provided a listing from you all's States, what 
it takes to get a birth certificate, what does it take to get a 
death certificate? How long does it take to get these items? I 
come from a county where 10 percent of the people who voted in 
the 2004 presidential election registered to vote in the last 3 
days before the registration deadline. By the time I notify 
those people of their ID requirements, it is going to be too 
late to get that ID from most States.
    We need a cheap quick access to photo IDs if we are going 
to put this in place.
    I have so many people who move from other counties. Also 
when you review the requirements to get a photo ID, look at 
this in the State of Michigan, honorable Chair, you have to 
have a photo ID to get a birth certificate. So if I have a 
senior citizen in my county between now and November who has no 
photo ID and was born in your State, the person has got to get 
a photo to get a photo ID. We are putting up these kinds of 
barriers to people.
    States are putting in the photo ID requirement to get birth 
certificates and divorce papers because of identity theft, but 
what that is doing is creating a barrier for people to get the 
photo ID they need for voting. Unless and until we are willing 
to have a national ID that everybody has access to across State 
lines, this is going to leave lots of people out.
    Over 3,000 Missourians last year who applied for a birth 
certificate could not get it because it was either not 
registered with the Department of Health when they were born or 
they could not find it based on the information provided.
    The most amount of time it took somebody was 90 days to get 
one that had been registered. Some of them they are still 
working on a year later. This is not acceptable in the 
timelines of elections that we are dealing with.
    Finally, I want to talk about students. A lot of people 
forget about them, even in my county. I have a large student 
population. I think it is very important that I have over the 
years hundreds of thousands of students had their access to 
democracy through my office. What I do and how they view 
elections is based on that first experience the rest of their 
life. So I think it is important. I have lots of out-of-state 
students who will not be able to get access to their documents 
in time to vote.
    I left more written--I left the information on how to get 
birth certificates, marriage license, divorce certificates. 
Sometimes you need three documents to prove who you are to get 
a photo ID. Sometimes it is cumulative. It may take 8, 12 weeks 
to get the supporting documents to get a photo ID in most of 
these States. So you need to think about our deadlines when you 
impose these things and how people will get them.
    [The statement of Ms. Noren follows:]
    [GRAPHIC] [TIFF OMITTED] 28965.052
    
    [GRAPHIC] [TIFF OMITTED] 28965.053
    
    [GRAPHIC] [TIFF OMITTED] 28965.054
    
    [GRAPHIC] [TIFF OMITTED] 28965.055
    
    The Chairman. I thank you for your testimony, and I can see 
the headlines in the Boone County newspaper, County Clerk Wendy 
Noren advocates microchip.
    Ms. Noren. That is right.
    Mr. Bettencourt. On dogs and humans.
    Ms. Noren. If only they could keep my dog from running 
away. I keep having to go to court because he runs all over.
    The Chairman. In some states it might be advantageous just 
to help prevent dogs from voting, which has been known to 
happen.
    Mr. Bettencourt. Hello.
    Ms. Noren. We have the random dog register, but you know 
what, the process has worked because they didn't vote. They got 
caught.
    The Chairman. Okay. Let's get back to business here. And 
one thing I find very frustrating with this, you may or may not 
know, I am a scientist by background and training. I like to 
deal with facts and data. And what I have found frustrating on 
this topic is I hear lots of opinions, lots of anecdotal 
evidence but very little hard data. And I will ask each of you 
to help me out with this. Perhaps I just don't know about it.
    But what concrete evidences are out there about fraud? I am 
not limiting this to citizenship. What concrete evidence is 
there about how difficult it might be to determine citizenship? 
How many people, for example, would have difficulty? Ms. Noren, 
you mention, for example, the difficulty of getting a photo ID. 
Well, photo ID in Michigan, you just ask for it and you get it, 
it is separate from the proof of citizenship. And so how many 
people would have trouble proving citizenship? What percentage? 
What procedures could be instituted to make it easier to verify 
whether or not someone is a citizen, whether or not someone is 
a legal resident of the jurisdiction where the vote is being 
held? Am I missing it? Are all these data out there and I just 
don't know about it or is it all such a conglomeration that no 
one has really sorted it out yet?
    We will start with Mr. Bettencourt. He seems eager to 
respond. I will give you a chance.
    Mr. Bettencourt. Okay, Mr. Chairman. The problem that you 
have had is that there hasn't been a definitive study that I 
know of. However, if you go with the philosophy of letting 
government do the work first, then you don't have the public 
having to chase all these records down. What we have done here 
is in the Harris County tax office, and I know Ray is familiar 
with this, is when we started cross-checking all these 
databases we did it so that the public didn't have to do the 
work. And if you started with some procedures that started with 
known, obviously good citizenship locations, I mean, locations 
of data like passport data, and you could build from that, 
obviously you have ICE data that can be used, and many, many of 
the Department of Public Safeties in the Nation ask for 
citizenship data to validate--effectively validate birth dates 
to begin with. So a lot of that data is out there.
    To your point, I started in robotics and process control. 
So what gets measured gets fixed for me. And we do know that we 
have a problem with noncitizens voting, but it takes 
extraordinary efforts because there is no national database. If 
there would be--to go to Wendy's comments. I am sorry we know 
each other from--so I am going to refer to her as Ms. Noren. 
When you get that database correct, then you take the 
exceptions to the public, not the rule, and, for example, to 
Ray's case and to others, to Wendy's case, if you get down to 
the bottom of it, effectively we take affidavits right now to 
vote. That is really what a HAVA provisional ballot is, is 
effectively an affidavit. So you could get down to the end 
where you will find people, their records are gone, etc., and 
you will just have to take an affidavit at that point. But that 
should be the exception and not the rule. We have done enough 
database analysis of other problems to realize that there are 
enough good known government sources to start with to get--my 
guess is 80 percent, 90 percent of the way to a good 
citizenship list to start with.
    The Chairman. Thank you.
    Mr. Martinez.
    Mr. Martinez. Thank you, Mr. Chairman. You know, it is a 
tremendously important question, and I don't know that I 
disagree with anything that my good friend Mr. Bettencourt has 
said. Quite frankly, I think that part of the reason that I 
now, speaking for myself obviously, taking off my agency hat, 
if you will speaking as one commissioner, I think part of my 
hesitation in moving forward saying anything about the voter ID 
registration, there is not a consensus that we have the 
empirical data available today to make such important policy 
judgments, and I think we are hearing that confirmed by local 
administrators like Mr. Bettencourt, who in my opinion is one 
of the best in the country at what he does. And I think we have 
to find that data and I think quite frankly, Mr. Chairman, the 
idea of creating the Election Assistance Commission was to try 
to get our arms around this issue.
    In fact, if you look at section 241 of HAVA one of the 
issues that is mentioned in the laundry list of research 
projects is to get our arms around the issue of voter fraud and 
voter intimidation. And I think as Congressman Ney has said 
both today and previously, we have to give both the EAC and 
HAVA some time to work and some time to do its job but in the 
meantime we are seeing a lot of policy issues at the State 
level which I have nothing but respect for, but sometimes those 
policy issues bump up against our obligations to implement what 
are important Federal laws like the National Voter Registration 
Act and HAVA.
    So again, I think that we need better data and a consensus 
that there exists a body of data that we can make those 
important public policy decisions upon, and I will let somebody 
else speak to the issue.
    The Chairman. Let me follow up just a moment. Isn't a lack 
of an ID requirement--is part of the problem in getting the 
data? We just don't have any records of----
    Mr. Martinez. Well, I mean I think the latest count is 
something--I think is probably more than 15, perhaps 20 States 
that have instituted some form of identification requirement. 
Now there is only three States that have instituted a photo ID 
requirement, but we have--I mean we have a pretty good history 
of States that have had ID requirements for some time now. Over 
the past few years in part because of HAVA, many States have 
extended ID requirements to all voters because HAVA imposes ID 
requirements for a small population, a small segment of voters 
so I think we are going to have a body of data to take a look 
at these issues, but again, the point is, you know from what 
Mr. Bettencourt said, it is just so important, the burden to 
verify citizenship, for example, the burden to ensure that only 
eligible citizens are voting, which I absolutely agree with. At 
first blush, Mr. Chairman, I think it ought to rest with the 
government. We ought to find ways that we can take on that 
burden so that we don't have to place that upon the voters by 
coming up with a piece of paper that may be difficult for them 
to attain, and we have to look for ways--I said this 2 weeks 
ago in testifying in front of this committee and our oversight 
hearing. We have to look for ways that offer the least burden 
upon the voters to ensure that we are not disenfranchising 
voters, and I respectfully submit those comments to you, Mr. 
Chairman.
    The Chairman. Thank you, and I would just simply comment, 
the American paranoia about a national ID card is what gets in 
the way of much of this.
    Quickly give Mr. Rogers and Ms. Noren time to respond.
    Mr. Rogers. Mr. Chairman, your question about the empirical 
data I think is I think very important. And I think that the 
district court judge in the Indiana case, which is going to be 
appealed to the Seventh Circuit, addressed those issues in 
detail and established I think a very solid foundation that 
there is really no suggestion that photo ID requirements, the 
ID requirements at issue in that Indiana case resulted in any 
single person becoming disenfranchised. And what I would 
recommend to this committee and to the Congress and just agree 
with Mr. Martinez, the time for study is over.
    In New Mexico this is a serious problem. The presidential 
election was decided by 366 votes in 2000 and a very minor 
number in 2004. I can guarantee the committee--and this is 
going into detail in my written testimony--that unless Congress 
enacts effective voter ID requirements and addresses this 
issue, that the presidential results, if the count is close, is 
going to be subject to tremendous litigation in my State and I 
believe other States as well. But the judge in the Indiana case 
goes into extreme detail, eviscerating all of the suggestions 
that ID is difficult to obtain.
    With regard to the flip side of that, what evidence do we 
have of fraud? As Chairman Hyde indicated this morning, there 
is a long list from the Public Integrity Section of the United 
States Department of Justice. There are examples from my home 
State, which I have provided. I guess my question is, how much 
fraud is tolerable? It is occurring now, and I would 
respectfully request Congress to act to do something to stop it 
because it is impacting elections now.
    Thank you.
    The Chairman. We will be certain to take a look at that 
decision from the Seventh Circuit. Ms. Noren, do you have any 
comments on the empirical data?
    Ms. Noren. Am I on? Okay. I am usually loud enough. Where 
does fraud occur? I can tell you where it has occurred in my 
State. It occurs in absentee ballot fraud, particularly mail 
absentee ballot frauds, and I think the Justice Department, if 
you look through their cases, you will find that is one of the 
largest sources of fraudulent ballots cast. We are going to 
have a photo ID with an absentee ballot; that is, a mailed 
absentee ballot. If you want to get at fraud, that is one of 
the areas you might want to curb, but what are you going to 
give up? Again, you have your balancing act.
    The second one are vote buying schemes, and this is 
something if you want to look at something--an area that a lot 
of election officials, we have been discussing in the last 
year. Think of the technology. A vote buying scheme requires 
someone to know how you voted. So when you go in that voting 
booth and you do that, you know, before they pay you, they want 
to know you did the right thing. What have we got right now, 
but technology, you can walk into a polling place and with a 
cell phone, put it down, and send off how you are voting to 
somebody. It doesn't take but a second. We may need to look at 
the technology being brought into a polling place.
    These are areas that are the real areas of fraud, the 
efficient methods of fraud. And the final area is voter 
intimidation, and again, you see that on both sides. I think 
the more common form these days is the taking of applications 
now that that process is opened up and not turning them in to 
election officials.
    The Chairman. Thank you very much for your response to that 
question. I am pleased to recognize the ranking member, Ms. 
Millender.
    Ms. Millender-McDonald. Thank you, Mr. Chairman. Mr. 
Martinez, I was touched by your comments with the reference to 
your father and how he really taught you the importance of 
democracy through the voting process. I am reminded of my 
father, Reverend Shelly Millender, Sr., who also fought and 
walked with Martin King to enable us to have the Voting Rights 
Act. Certainly we should be doing that and having that law put 
on the table, and the Congress get that law out. That should be 
the first thing we do before we do this Federal Electoral 
Integrity Act that has been placed before us. But when you got 
the Arizona notice that the Secretary of State had imposed that 
law, did all of the commissioners, albeit Republicans and 
Democrats who serve on the EAC, respond to that? And how did 
they respond to that issue?
    Mr. Martinez. Yes, Madam Ranking Member. From a procedural 
perspective, we handled that request in the same way we had 
handled a previous or similar type of request from a different 
State. And that is to allow our professional staff and, in 
particular, our general counsel and our executive director to 
study the issue to get a sense of the commission and to issue a 
response, and so what you saw from--in responding to the State 
of Arizona when they submitted their request was a response 
from our executive director, Tom Wilkie, which essentially 
reflects a consensus if you will or a sense of the commission 
in sending that particular response.
    So I hope that is responsive to your question, but 
obviously the executive director would not be sending a letter 
stating the commission's position on a matter without getting 
again a sense of the commission itself.
    Ms. Millender-McDonald. So in other words, you guys were 
unanimous in the fact that the law or that proposition, I 
should say, 200 was not deemed constitutional.
    Mr. Martinez. Well, I think to be fair, there has not been 
a public voter deliberation of this specific issue by the full 
commission in the context of a public hearing where we can take 
testimony and vote on the particular matter. So I am hesitant 
to want to put any words or any actions or attribute them to my 
colleagues without them being able to be here and speak to the 
issues themselves, but I am trying to give you as close to a 
factual representation as I can, Madam Ranking Member.
    Ms. Millender-McDonald. Thank you so much.
    Mr. Rogers, in your testimony, you indicated that you do 
not have quantitative numbers with reference to the fraud or 
the voter fraud that goes on with nonvoting persons. It has 
been identified through the question of the chairman that there 
is not empirical data that really suggests this, and I have 
many comments from various folks who really have not had a 
large percentage of this type of illegal voting of noncitizens. 
But let me ask you the question of the Federal Election 
Integrity Act that is before us by Chairman Hyde. He says that 
this would help guard against voter fraud.
    How would this law help guard against voter fraud when 
there are laws already on the books that have not guarded 
against that?
    Mr. Rogers. Mr. Chairman, Representative, I believe this 
law would be a significant safeguard because requiring photo ID 
in all Federal elections would allow us to begin to assess the 
numbers and the problems that cannot be effectively assessed at 
this time. I think it would go directly to the problems of my 
client in the ongoing City of Albuquerque suit. Had there been 
photo ID his vote would not have been stolen.
    But the real problem I believe is not really quantifying 
the numbers, but recognizing that while no one can state it is 
3 percent, it is 10 percent, whatever it may be or even 0.3 
percent, when the presidential election in New Mexico was 
decided by 366 votes, I can guarantee you without any doubt 
that this issue, the number of noncitizens voting had an impact 
on that. And more than that, more than that----
    Ms. Millender-McDonald. How can you guarantee that, sir?
    Mr. Rogers. Because of the number of voters in New Mexico, 
because of the 3,000 fraudulent registrations that were 
supplied in 2004 that allowed 3,000 people potentially to vote. 
There has to be a connection between registration and voting, 
and I believe without a doubt that the numbers would have been 
different had there been this law in effect and certainly in 
2000.
    Ms. Millender-McDonald. Well, you believe that, but you do 
not have empirical data. One thing for sure, it seems to me we 
have the cart before the horse. We should get some empirical 
data to justify why there should be another law, another law 
placed on the books. We already have Title 18 that speaks to 
citizens of the United States. Whoever falsely and willfully 
represents himself to be a citizen of the United States shall 
be fined on this title or imprisoned for not more than 5 years.
    Why is it that we need to get another law, sir? It appears 
to me like there needs to be some enforcement, not other laws 
put on the books.
    Mr. Rogers. Mr. Chairman, Representative, the reason is 
that there is no mechanism, no procedure to begin to require 
people to identify themselves that would eliminate this 
problem. In other words, in New Mexico as well as most spots, 
it is simply too easy to present yourself and vote presently. 
This law would not only address what I believe to be our real 
votes and real numbers, but I think it is important because the 
public is cynical. The public is skeptical of the numbers and 
the process. And in New Mexico we have lots of reasons why that 
would be so because of registration problems and because of the 
occasional prosecution or the occasional instance where someone 
voluntarily comes forward and says, I am a green card alien, I 
was improperly registered. I asked the person if I could 
register. They assured me I could. I didn't want to register, 
and yet they pressured me into registering. That same person 
who registered, this green card alien was registering other 
people who are simply not going to have the respect for our 
laws that Ms. Armejo does. So I would respectfully submit to 
the committee that not only is it a real issue in the number of 
votes but beyond that, it is public confidence in the process. 
Thank you.
    Ms. Millender-McDonald. And we understand that, but outside 
of that, Mr. Hyde himself said that we have 12 million 
undocumented immigrants. He assumed or presumed that--and he 
said himself, and the record will show, certainly some of those 
are voting illegally. We cannot assume that type of thing. We 
have to have some type of empirical data, sir. And outside of 
that, we cannot just say, I believe or I think. How would you 
do the citizens of the State of Oregon who have only an 
absentee ballot voting process?
    Mr. Rogers. Well, Mr. Chairman, Representative, I believe 
that there are samples out there, as an example, in New Mexico 
there is a suggestion that people mail in identification with 
their registration, that they provide that safeguard there.
    Ms. Millender-McDonald. And you will presume that the 
picture that is there is that of the person who submits that 
affidavit?
    Mr. Rogers. Well, I wouldn't presume anything, but what I 
would suggest is that no system is absolutely fail proof, but a 
system is absolutely necessary at this point in our history to 
address the lack of confidence in the process. And I believe 
that a lot of the concerns today that have been identified and 
a lot of the concerns that have been identified in the Indiana 
case that weren't very ably managed by the judge can be 
addressed by reasonable procedures, and I think there is a 
process. The EAC or other entities could come up with processes 
that would allow a mail-in procedure, such as Oregon, to 
address it. And I think that the Chairman Hyde's bill does 
attempt to do that.
    Ms. Millender-McDonald. I don't think so. Mr. Chairman, the 
light went so quickly. I thought we had at least 5 minutes. It 
is inconceivable to me that 5 minutes had expired when before I 
got to Mr. Martinez it was yellow. So I do need to raise some 
more questions here because, Mr. Rogers, I would like to ask 
you about this piece of legislation that seems to be headed for 
the courts. Now, as the court found in Common Cause v. Billups 
requiring photo identification at the polls amounts to an 
unconstitutional poll tax. How are we going to deal with that, 
given the fact that we have already met with a court procedure 
here in terms of poll taxes and what this will amount to, a 
photo identification being that of a poll tax because what you 
are suggesting that everyone has to have a passport, and 
passports are upwards of $100.
    Mr. Rogers. Mr. Chairman, Representative, I couldn't 
improve on the analysis of the Indiana Federal District Court 
judge who said that the comparison to a poll tax was overheated 
rhetoric, and what I would suggest is that of course the poll 
tax was a disgraceful era in our country's history. I would 
suggest that the comparisons to this really do not apply, that 
the analogy is not correct, and the reason I would say that is 
because when a Federal District Court judge had that very claim 
before her and analyzed all of the evidence that these same 
parties, Common Cause, ACLU, League of Women Voters, wanted to 
present, she found that there was absolutely not a single 
person who could not provide that. And beyond that, I really 
think what you are looking at are the details of how it might 
be implemented, free photo ID, an affidavit situation for those 
that have religious problems with photo ID, but I believe that 
the analysis from Indiana and certainly the recent Arizona case 
establish that this poll tax argument is really not fair, and 
it really poisons the debate.
    Ms. Millender-McDonald. It is still a tax, no doubt.
    The Chairman. Time has expired. Mr. Doolittle is 
recognized.
    Ms. Millender-McDonald. And is imposed on the citizens.
    The Chairman. Come to order. Mr. Doolittle is recognized.
    Ms. Millender-McDonald. Mr. Chairman. Mr. Chairman, you do 
not have to gavel me!
    Mr. Doolittle. Thank you for being here today. I opposed 
the Motor Voter Act because of the problems I could foresee. 
Unfortunately, I was outvoted and President Clinton signed it 
into law. I do not view it as a positive piece of legislation. 
It had a partisan edge to it in my opinion, and that has been 
the effect. I think we need to be more concerned about 
fraudulent voting, and we have documented evidence that in a 
close election, in 1996 in the Dornan and Sanchez race, the 
State officials found--which was, by the way, the winner of 
that, declared winner, had 984 more votes, and of those the 
State officials found that at least 300 were cast illegally by 
non-citizens, 300. So I would continue to believe that that 
race had more than 300, but that is what was documented. And 
that can happen again, especially now that we have more and 
more and more illegal aliens here in this country, many, many 
more since 1996, millions more.
    I would like to address a question to Mr. Martinez about 
this Arizona business, given the fact that they have done what 
they have done and the judge has declined to issue the TRO, 
doesn't the Election Assistance Commission feel compelled at 
this point to reference the proof of citizenship requirement in 
the instructions accompanying the Federal form?
    Mr. Martinez. I think, Congressman, that there is no 
question that it is our obligation to carefully consider Judge 
Silver's opinion that she issued a few days ago, and I can 
commit to you that that is happening at the Election Assistance 
Commission. Does it compel us to change our stated opinion? 
That remains to be seen. Obviously that could--that vote could 
be called for or something like that could perhaps occur, 
Congressman.
    Now taking off my agency hat and putting on the hat of one 
commissioner, I would simply point out again that what we have 
in the context of this opinion is a nonevidentiary hearing for 
a TRO that was delivered by this U.S. District Court judge who 
has already set a date, another month down the road for a 
hearing on the preliminary injunction. I would simply say that 
it is the responsibility of his agency to consider the context 
of this particular decision in its place in the adjudication 
procedure, if you will. So for the agency to act on this 
particular ruling, I think we have to look at where we are, and 
again, as I said in my statement, in my opening statement, 
Congressman, we have to act deliberatively, we have to act in a 
manner that considers all aspects of this particular case, and 
again, what I would emphasize is that we have to act in a 
manner that does not just consider the important matters that 
the good people of Arizona have decided through Prop 200. We 
have to decide how that particular request plays across the 
country with all other jurisdictions that are covered by MVRA 
because although I respectfully understand your opposition to 
MVRA, it was passed by a pretty healthy majority back in 1993 
by the United States Congress.
    My obligation as one of four commissioners over this 
Federal statute is to properly implement it, not just with 
regard to the interests of one State, though as valid as those 
interests are and as much respect as I give to those interests, 
I have to implement in the context of all the other 
jurisdictions that are had equally covered by MVRA.
    Mr. Doolittle. Thank you. To the panel at large, there 
seems to be agreement that there is vote fraud, however, 
disagreement over the scale and the extent of the problem. 
Existing procedures seem to make it difficult if not impossible 
to determine if and when fraudulent votes are being cast. And 
given these deficiencies, how do you quantify the problem? How 
do we know John Smith is John Smith if he is never required to 
show an ID? How do we know he is not voting as John Jones in 
the next county and John Bell somewhere else? Isn't it the very 
lack of an ID requirement that makes it so difficult to 
determine indeed the very scope of the problem?
    Mr. Bettencourt. Well, there is no question, Congressman, 
that that is correct. The fact is that the studies I have seen, 
the photo ID is present and because the people have to use it 
for so many other things besides voting, I believe over 98 
percent of the public could have some access to that already. 
And if you have photo ID, then you can crack down on what is 
clearly fraud at the polls and, as Ms. Noren has said, 
substantial mail fraud and absentee voting just by initiating 
the requirement, you will get the result. Again, what gets 
measured gets fixed. So from my point of view, in addition to 
that, you can back up those requirements with other known 
database sources that already exist and cross-check that 
information so you will know about Mr. Jones voting in multiple 
counties because it is probable that Mr. Jones doesn't have his 
cars registered in multiple counties and doesn't, you know, 
doesn't have other accoutrements that you could find and be 
able to identify that individual. So I believe with your 
premise, you are absolutely correct.
    Mr. Doolittle. Well, thank you very much. Thank you, Mr. 
Chairman.
    The Chairman. I thank the gentleman. Mr. Brady is 
recognized for 5 minutes.
    Mr. Brady. Thank you, Mr. Chairman. Just for Mr. Hyde's 
knowledge, I polled my district in the City of Philadelphia. In 
my district we had a new law that said you had to show 
identification for a first-time voter. And it was 
overwhelmingly no. So we can counter his overwhelmingly yes 
with identification with my overwhelmingly no. I have heard 
about your dad. God bless him, I heard about your dad. I want 
to tell you about my mom. My mom is 84 years old. And for her 
to get a photo ID--and I keep hearing free photo ID. You may 
have a free photo ID in some places, but in the City of 
Philadelphia, in the State of Pennsylvania, to get any kind of 
photo ID, you need to show other ID, and to obtain that other 
ID, whether it be a birth certificate there is a charge, a 
passport there is a charge, or any other ID that is required to 
get your free photo ID, there is a charge for. And again, my 
mom would have to burden that charge. And her being 84 years 
old, she would have to go someplace, somewhere, get in line, as 
we all have our bureaucracies everywhere in every State, have 
to get in line and wait and have to wait just to get a photo ID 
so she can wait again just to vote. And I think that HAVA, Help 
America Vote Act, that passed and we are trying to implement, I 
think that flies in the face by having a senior or other people 
for that matter have to go through that hardship just to allow 
them to vote. Again, so the free photo ID I just--we keep 
hearing, keep hearing it. Maybe it is free in some States but 
it is not free in our State or our city. And it is another 
hazard they have--or another hurdle they have to jump over to 
get.
    Mr. Bettencourt, I read your statement. I hear you say and 
I read what you wrote here that you need ID to buy tobacco, you 
need ID to buy alcohol, and you need alcohol to use your credit 
card. I don't. I will take you to lunch, buy you a drink.
    Mr. Bettencourt. I will buy.
    Mr. Brady. Cigarettes. And I won't need to show any 
identification when I use my credit card or when I buy you a 
drink or when I go out and buy a pack of cigarettes. Some 
people do. Now, if you are young enough looking like my 
esteemed colleague, they may, but I would be honored that they 
would----
    Ms. Millender-McDonald. Don't go there.
    Mr. Brady. If they would tell me I need photo ID to buy a 
pack of cigarettes or to use my credit card or to buy alcohol. 
So I mean, that is not a fair statement. The airplane, maybe, 
but the three out of the four, when you give us a statement 
that says that, that is not accurate.
    Mr. Bettencourt. Well, Congressman, I beg to differ. What 
the fact is is that there are photo ID requirements there for 
all those individual specific items that we talked about. And 
the fact that if there is photo ID for some, it can easily be 
expanded for others at that point. And I do have to agree, 
however, that hopefully the men in the audience are not subject 
to that request. But on a serious note, photo ID is so 
pervasive it leads from the societal use and the fact that 
driver's licenses have it.
    To go to the chairman's comments, you could put a 2-d 
barcode on existing driver's license and have a national ID. 
There is so little technology barriers left in the 21st century 
to having a photo ID that is multi-use that you could use for 
tobacco or alcohol when you happen to be at the right age for 
that, use for voting your entire life, and use it to board an 
airplane at any time in your life.
    Mr. Brady. All right. Now we have this photo ID we are 
going to now take with us and go vote. Who do we show it to?
    Mr. Bettencourt. Excuse me?
    Mr. Brady. Who do you show it to when you go vote?
    Mr. Bettencourt. Well, you would show the election 
officials in Ms. Noren's case because she conducts the 
elections and mine.
    Mr. Brady. She is not at every polling place.
    Mr. Bettencourt. Well, obviously she has clerks.
    Mr. Brady. Forget about her. Let's go back to my town where 
I live. Who do you show it to in Philadelphia? Do you show it 
to the election board, everyday common ordinary people that I 
don't think have the qualifications to say whether or not you 
are that photo ID.
    Mr. Bettencourt. Congressman, I would say I think any 
person that is trained in the election system can look at a 
photo ID and look at the person and decide if there is a 
reasonable chance that that is that person.
    Mr. Brady. Come back to my town. I only live in my town.
    Mr. Bettencourt. I have visited once during a convention 
back in 2000. I have not had a chance to vote in your town, 
sir.
    Mr. Brady. Did you eat there? You didn't show an ID.
    Mr. Bettencourt. That is right.
    Mr. Brady. Go back to my town. In my town we have election 
boards. We have 3,400 of them in the City of Philadelphia. And 
in my town, these people are not schooled nor would they want 
to be schooled for an extra problem. Another problem that they 
have to sit there for 13 hours, they are not schooled in saying 
whether or not the person showing you this ID is that person. 
Maybe they got a haircut, maybe they got heavier, maybe they 
haven't updated it, maybe they got heavier. There is a lot of 
problems with that, I just want to debate that point. It sounds 
good and I do want people--I don't want people that are not 
qualified or eligible to vote to vote. I want the right people 
to vote, and I just think there should be another way that we 
can maybe do this, and I want to point out some of the 
inadequacies or fallacies that we have heard here today.
    Thank you, Mr. Chairman. I don't want to get gaveled down.
    The Chairman. Ms. Lofgren is recognized for 5 minutes.
    Ms. Lofgren. Thank you, Mr. Chairman. There are some points 
of agreement here and then points of disagreement, and I think 
the first point of agreement is only Americans ought to 
register and vote. That is the starting point we all agree. 
From there I think how we accomplish that is very much a 
question, and it is important that whatever we do is fair to 
people, to Americans who are not as affluent and who are not as 
privileged as every person sitting at this dais and most of the 
people sitting at that table and in the audience, and I think 
we have talked about our parents.
    I think about my late father who--I never saw his birth 
certificate. I think he was born at home. He was a World War II 
vet. Like most Americans he never had a passport, he never went 
outside the United States with a passport. He never had an 
airplane ride until he came to see me sworn into Congress. You 
know, most Americans don't have the kind of stuff we have. So 
let's think about who gets to----
    I think about my grandmother who was born at home in 
Brooklyn. She drove a car once and drove it into the side of a 
bus, and never drove again. She didn't have a driver's license, 
she didn't smoke or drink. She didn't have a photo ID, but she 
worked throughout the Depression and was a proud American and 
she would not be able to vote under Mr. Hyde's bill. And then 
when you think about who has--I mean it is fair--people can say 
well most people have an ID, most people just use their 
driver's license.
    I would like to ask unanimous consent to put into the 
record a report that I have received from the University of 
Wisconsin Milwaukee outlining who has driver's licenses in 
Wisconsin, who doesn't. And----
    The Chairman. Without objection, so ordered.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 28965.056
    
    [GRAPHIC] [TIFF OMITTED] 28965.057
    
    [GRAPHIC] [TIFF OMITTED] 28965.058
    
    [GRAPHIC] [TIFF OMITTED] 28965.059
    
    [GRAPHIC] [TIFF OMITTED] 28965.060
    
    [GRAPHIC] [TIFF OMITTED] 28965.061
    
    [GRAPHIC] [TIFF OMITTED] 28965.062
    
    [GRAPHIC] [TIFF OMITTED] 28965.063
    
    [GRAPHIC] [TIFF OMITTED] 28965.064
    
    [GRAPHIC] [TIFF OMITTED] 28965.065
    
    [GRAPHIC] [TIFF OMITTED] 28965.066
    
    [GRAPHIC] [TIFF OMITTED] 28965.067
    
    [GRAPHIC] [TIFF OMITTED] 28965.068
    
    [GRAPHIC] [TIFF OMITTED] 28965.069
    
    [GRAPHIC] [TIFF OMITTED] 28965.070
    
    [GRAPHIC] [TIFF OMITTED] 28965.071
    
    [GRAPHIC] [TIFF OMITTED] 28965.072
    
    [GRAPHIC] [TIFF OMITTED] 28965.073
    
    [GRAPHIC] [TIFF OMITTED] 28965.074
    
    [GRAPHIC] [TIFF OMITTED] 28965.075
    
    [GRAPHIC] [TIFF OMITTED] 28965.076
    
    [GRAPHIC] [TIFF OMITTED] 28965.077
    
    [GRAPHIC] [TIFF OMITTED] 28965.078
    
    Ms. Lofgren. Thank you. This study shows that among young 
adults age 18 to 24, 78 percent of African American men didn't 
have a driver's license, 78 percent of African American men in 
that age bracket didn't have a driver's license or photo ID, 66 
percent of African American women in that age bracket did not 
have a driver's license. And you think about--you don't have a 
driver's license if you don't have enough money for a car. And 
if you take a look at poverty in this country, who lives in 
inner cities, who lives on an Indian reservation, it is the 
lack of ID that we just so blindly assume everyone has because 
we are the privileged, we are the elites in society. It is not 
the case for every element of our society.
    So you know, we don't know very much about fraud. 
Presumably there is some in the United States, as there is in 
everything, but we do know a little bit about who is being 
deterred from voting. And I would like to ask unanimous consent 
to put an article into the record from the Los Angeles Times, 
if I may.
    The Chairman. Without objection, so ordered.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 28965.079
    
    [GRAPHIC] [TIFF OMITTED] 28965.080
    
    [GRAPHIC] [TIFF OMITTED] 28965.081
    
    [GRAPHIC] [TIFF OMITTED] 28965.082
    
    Ms. Lofgren. And quoting from this article which will go in 
the record, in Arizona, Maricopa County, home to Phoenix, 
according to the L.A. Times, more than 10,000 people trying to 
register have been rejected for being unable to prove their 
citizenship. Yvonne Reid, spokesman for the Recorder's Office, 
says most are U.S. citizens whose married names differ from the 
birth certificates or have lost documentation. And in Pima 
County, home to Tucson, according to this article, 60 percent 
who tried to register initially could not and all appear to be 
U.S. citizens, according to this article. And in Pima County, 
and again this L.A. Times article, Elections Chief Rhodes is 
concerned that people who have recently moved or don't have 
detailed bills could be blocked from voting. Rhodes, a 
Republican, said many of those would be traditional supporters 
of Democrats, such as Native Americans, elderly people and the 
poor. Quote, the whole point of this is to reduce the turnout, 
unquote, and that is from the Republican Registrar.
    So I think we need to think about the impact of this 
proposal on suppressing the vote, and I am sorry, as I said in 
my opening statement, I can't help but being mindful that we 
didn't act on the Voting Rights Act yesterday, and today we are 
looking at this that would have the impact of suppressing the 
vote of African Americans and poor people. I do believe that we 
should take educational efforts and--for Mr. Martinez, if you 
could--I think that most noncitizens, if they knew that they 
would be subject to prosecution, be deported if they were to 
register to vote, that would be pretty chilling. Do you think 
we should do an educational effort, maybe some TV, ``register 
to vote if you are not a U.S. citizen, and you will lose your 
green card''? I think that is certainly more severe than any 
penalty I could think of. Has the commission thought about 
doing that?
    Mr. Martinez. No, we have not. Obviously the funds we have 
distributed under the Help America Vote Act, particularly Title 
II funds, there is a component to that, Congresswoman, that 
allows State and local jurisdictions to spend a portion of this 
money on voter education efforts. But that is not something 
that we as a commission have necessarily urged.
    Ms. Lofgren. Well, I see my time has expired, Mr. Chairman, 
and I appreciate the indulgence in allowing the witness to 
answer.
    The Chairman. Thank you. I thank this panel very much for 
your testimony. It has been extremely helpful. It seems at this 
point the only answer is a microchip, but we will keep 
investigating. But thank you very much for your testimony. We 
deeply appreciate it, and I call for the next panel.
    On our third panel today we are pleased to have Mr. Dan 
Stein, President, Federation for American Immigration Reform; 
Daniel Calingaert, Associate Director, Center for Democracy and 
Election Management; Spencer Overton, Professor at the George 
Washington University Law School; and Christine Chen, Executive 
Director, Asian Pacific Islander American Vote.
    I am pleased to finally have you here, Ms. Chen. Welcome to 
our panel. I appreciate having you here, and we will begin by 
asking Mr. Stein to make his statement. Once again, 5-minute 
limit and you are familiar with the red, yellow and green 
lights.
    Mr. Stein.

  STATEMENTS OF DAN STEIN, PRESIDENT, FEDERATION FOR AMERICAN 
  IMMIGRATION REFORM; DANIEL CALINGAERT, ASSOCIATE DIRECTOR, 
CENTER FOR DEMOCRACY AND ELECTION MANAGEMENT; SPENCER OVERTON, 
  PROFESSOR, THE GEORGE WASHINGTON UNIVERSITY LAW SCHOOL; AND 
  CHRISTINE CHEN, EXECUTIVE DIRECTOR, ASIAN PACIFIC ISLANDER 
                         AMERICAN VOTE

                     STATEMENT OF DAN STEIN

    Mr. Stein. Thank you, Mr. Chairman. I very much appreciate 
the opportunity to be here, and want to salute your leadership 
in holding these hearings to explore this very important issue 
that many Americans are concerned about.
    My organization, Federation for American Immigration 
Reform, primarily deals with U.S. immigration policy and 
issues, the Nation's largest organization working for U.S. 
immigration laws, 200,000 members and supporters all across the 
country, every walk of life, and we have developed some 
expertise on immigration issues over time.
    The Chairman. Is your microphone on?
    Mr. Stein. Now it is.
    The Chairman. Thank you.
    Mr. Stein. Mr. Chairman, one of the reasons why so many 
people from all over the world want to come to this country and 
see it as a land of opportunity is because they see in the 
United States certain things that they don't see in their own 
country. One of them is that we have a system that works, and 
they believe that the rules are enforced, that if you play by 
the rules fairly you have an opportunity to get ahead. And 
fairness has always been a very important value, fundamentally, 
among American citizens and the American people. And in the 
course of becoming new citizens, they learn an awful lot about 
responsibility.
    Citizenship entails not only certain rights but 
responsibilities, and one of those responsibilities is voting. 
Now, a good deal of the hearing has dealt with this whole 
question of whether or not there is a conflict between trying 
to promote a large turnout, which we all support and naturally 
FAIR wants to make sure everyone who is eligible and is 
interested in voting does so, and how you balance that with 
ensuring the integrity of the process, and how to bring about 
measures to ensure that noncitizens are not voting in a way 
that does not unduly burden citizens who are eligible. And 
naturally, low turnout is a big problem, but you know if you 
really want to decrease turnout in this country, continue to 
allow the perception to be created that the registration system 
lacks integrity at any phase of the registration process. And 
that is the perception that is spreading around the country and 
is one of the reasons why we were very much involved in 
Proposition 200 in Arizona, why the overwhelming majority of 
the people of Arizona supported the voting registration 
provisions of Proposition 200, including minority voters, 
minority women voters, and other blocs that supported it.
    I think 47 percent of Hispanic American voters supported 
Proposition 200. Clearly it was not a class-based issue, as 
some might suggest here, but there was very strong public 
support for the voter registration provisions in Arizona. I 
will just reference again Judge Silver's decision yesterday in 
which he said that the requirements of the National Voter 
Registration Act is just a starting point. States are free to 
enact measures, including proof of citizenship, to make sure 
those people who sign up to vote are in fact legally qualified 
to do so. What is at stake here is ensuring the legitimacy of 
the electoral process and the franchise of supreme importance 
given the enormous power that Congress wields in important 
areas, such as taxation.
    Now, one of the reasons why it is so hard to get empirical 
evidence--we have heard a lot about empirical evidence today. 
Well, if you think about it, it is almost impossible to get 
certain kinds of empirical evidence about illegal immigrants 
voting. If you enter the country without inspection, you are 
not going to have any kind of immigration record. One of the 
reasons why someone here illegally wants a voter registration 
card is because it is very valuable to use on the I-9 which, 
along with a Social Security card, can be used as proof of 
citizenship and work authorization.
    For people here illegally, there are two highly sought 
after documents, driver's license and voter registration card. 
Those are the keys to the kingdom--I have been at this long 
enough to remember when William Francis Smith made the comment 
that our entire documentary structure is built on a foundation 
of sand. The fact is we don't have a national birth registry, 
which we are hoping the REAL ID Act will begin to move us 
toward and this, has made it very difficult for States to 
verify false claims to citizenship. The argument that there are 
criminal sanctions for false claims of citizenship and that 
somehow that would be self-executing as a deterrent obviously 
rings hollow when you look at the high level of illegal 
immigration today, and you can certainly make the argument that 
illegal immigration is against the law, but laws, as we now 
know, that are not well enforced or enforced at all are going 
to be routinely abused when there is an incentive to do so.
    So what we are talking about here is gradually closing a 
web, a web that starts at the State level with a lack of birth 
records and the ability to establish native-born citizenship, 
trying to improve Federal immigration records and trying to 
improve the security of State documents, such as driver's 
licenses. While there is no uniform solution to this, the 
legislation that Congressman Hyde has proposed is an important 
first step, and we have to start somewhere. I think the 
overwhelming majority of the American people would support the 
kind of documentary requirements proposed in this bill.
    Would there be an adjustment process? Do we have to 
grandfather people who are already registered? Of course. But 
that doesn't mean we should do nothing. To do nothing is to 
risk jeopardizing the integrity of our electoral system, which 
is the heart of our whole republic.
    Thank you so much for this opportunity, and free to answer 
any questions you might have.
    [The statement of Mr. Stein follows:]
    [GRAPHIC] [TIFF OMITTED] 28965.083
    
    [GRAPHIC] [TIFF OMITTED] 28965.084
    
    [GRAPHIC] [TIFF OMITTED] 28965.085
    
    [GRAPHIC] [TIFF OMITTED] 28965.086
    
    [GRAPHIC] [TIFF OMITTED] 28965.087
    
    [GRAPHIC] [TIFF OMITTED] 28965.088
    
    The Chairman. Thank you.
    Dr. Calingaert.

                 STATEMENT OF DANIEL CALINGAERT

    Dr. Calingaert. Thank you, Mr. Chairman, honorable members. 
I appreciate the invitation to speak this morning.
    I had the privilege of serving as Associate Director of the 
Carter-Baker Commission on Federal Election Reform. The 
commission noted that too many Americans lack confidence in our 
election process. Polls show about one in three Americans have 
doubts about the accuracy of the vote. The commission set out 
to bolster confidence in the election system by strengthening 
the integrity of the election process and, at the same time, 
expanding access and participation. This combination of 
focusing on integrity and access was the basis of a bipartisan 
package of reforms.
    One of the most noted recommendations of the commission was 
for voter ID. The commission recommended voter ID to ensure 
that each person who appears at the polls is the same person 
who is listed on the voter registration list.
    This is simply a basic and fundamental check on the 
integrity of the system. We have had lots of discussion earlier 
about fraud, and in the Commission's perspective fraud is 
probably not extensive, but it does occur and the main concern 
is that in close elections, fraud can affect the outcome. If we 
are trying to increase confidence in the election process, we 
need to have safeguards in place to detect and deter fraud and 
to verify the identity of voters.
    The Carter-Baker Commission's recommendations differ from 
many other proposals on voter ID in significant respects. 
Others have talked about issuing free ID's to citizens who do 
not have driver's licenses. What the Carter-Baker Commission 
recommended was to base the voter ID on the REAL ID Act, so 
that driver's licenses issued under REAL ID would double as a 
voting card.
    What this does is combines the process of issuing photo ID 
with the process of voter registration. In other words, when 
citizens are issued a REAL ID driver's license, they are 
automatically registered to vote, so if they go to the polling 
station, if there are issues with their voter registration, the 
fact that they would have a REAL ID card under the system would 
be proof that they are eligible to vote.
    More importantly, the Commission recommended proactive 
measures from States to reach out to voters who aren't 
registered, who don't have ID, so that they could be issued 
free ID's and they can be registered. This is a very 
significant change in how things are done. Now states 
essentially play a passive role in voter registration. They 
wait for citizens to come to them.
    What the Commission recommends is that States begin to take 
the initiative to reach out to voters, for instance, using 
mobile offices as they do in Michigan to go to college 
campuses, to nursing homes, to the key audiences who lack ID at 
the moment.
    This combination of voter ID requirements with proactive, 
new measures to expand voter registration and to make free ID's 
available are what distinguishes the Carter-Baker Commission's 
recommendations, and I think this is a sound basis for 
bipartisan compromise and a way to move forward in building an 
election system that will give confidence to all Americans.
    Thank you.
    The Chairman. Thank you very much.
    [The statement of Dr. Calingaert follows:]
    [GRAPHIC] [TIFF OMITTED] 28965.089
    
    [GRAPHIC] [TIFF OMITTED] 28965.090
    
    [GRAPHIC] [TIFF OMITTED] 28965.091
    
    The Chairman. Mr. Overton.

                  STATEMENT OF SPENCER OVERTON

    Mr. Overton. Thank you, Mr. Chair. I am a law professor at 
George Washington University. My specialty is voting rights. I 
served as a commissioner on the Carter-Baker Commission. I am 
the author of this new book: Stealing Democracy, The New 
Politics of Voter Suppression. There is a chapter in this book 
on voter identification and its implications.
    I am also the author of this academic paper that will be 
published in the University of Michigan Law Review entitled 
Voter Identification. I have submitted it as my written 
testimony for the record.
    Mr. Chair, basically, political sound bites and political 
correctness have shaped this photo ID debate rather than facts. 
As a result, many people have embraced flawed assumptions by 
relying on a couple of false stories about voter fraud.
    For example, in August of 2005, legislators in Wisconsin 
held a press conference claiming that a photo ID requirement 
was needed because they found that nine people who voted in 
Milwaukee in November 2004 also cast ballots in Chicago, 
Minneapolis, or Madison. The Republican-appointed U.S. attorney 
investigated all nine claims and found that none involved 
fraud, all involved different people with similar names or 
clerical errors.
    Research shows that photo ID advocates regularly throw out 
broad examples of voting irregularities without knowing the 
details of the stories they cite.
    Photo ID advocates, like John Fund of The Wall Street 
Journal, cite stories of multiple registrations, vote buying, 
improper absentee balloting or voting by ineligible former 
felons. Research shows that these stories were missing critical 
facts and that a photo ID wouldn't have prevented these 
problems.
    One example here would be Fund claims that several of the 
9/11 terrorists were registered to vote in Virginia. Virginia 
election officials have investigated that claim, they haven't 
found evidence of that assertion. But even if they were 
registered, a photo ID requirement wouldn't prevent the 9/11 
hijackers from voting because the 19 terrorists had 63 drivers 
licenses between them.
    There are many other examples in my paper, the Michigan Law 
Review paper, of misleading claims of fraud.
    Now while fraud may be rare here, data shows that this bill 
would suppress the legitimate votes of millions of Americans. 
About 20 million voting age Americans don't have a State-issued 
ID. That is more people than in New Mexico, Delaware and 14 
other States combined. Representative Lofgren talked about 
Wisconsin, which is an important study, and I won't repeat 
that.
    Now, some photo ID advocates ignore this data and instead 
they rely on rhetoric that legitimate voters won't be excluded, 
because photo IDs are needed to board a plane and buy 
cigarettes. This compares apples and oranges. So, for example, 
it makes sense to prevent a thousand legitimate travelers from 
flying who don't have ID if we can stop one terrorist who will 
blow up the plane. But it doesn't make sense with voting to 
exclude a thousand legitimate voters just to stop one possible 
fraudulent voter.
    Businesses charge money for airline tickets and cigarettes, 
but charging just $2 to vote is unconstitutional. Why? Because 
it excludes certain citizens and thwarts the will of the 
people.
    Let me also say as a law professor, a court would likely 
find this particular bill before us unconstitutional because it 
would likely exclude so many legitimate voters and so few 
fraudulent ones, it wouldn't be appropriately tailored and 
would be found to be an undue burden on the right to vote. 
Also, because the bill provides no funds for photo 
identification cards and documents like birth certificates and 
passports and naturalization papers, the bill constitutes an 
unconstitutional poll tax.
    We have got real problems in our democracy and Americans 
want us to fix those problems by using real tools that work. 
Mr. Bettencourt mentioned a number of tools they use to prevent 
fraud in Texas that already work. Unfortunately, this bill 
would throw the baby out because the baby has a drop of 
bathwater on the baby's arm.
    In our Nation we need to spread democracy around the world, 
that is absolutely right, but we also need to protect democracy 
here in the United States for people at home. Our voter 
participation is very low. We are in the bottom 19 percent of 
all democracies in the world in voter participation.
    The excessive regulation and unfunded Federal mandate in 
this current bill would suppress voter participation and 
undermine the integrity of government of, by and for the 
people.
    Thank you very much.
    The Chairman. Thank you very much.
    [The statement of Mr. Overton follows:]
    [GRAPHIC] [TIFF OMITTED] 28965.092
    
    [GRAPHIC] [TIFF OMITTED] 28965.093
    
    [GRAPHIC] [TIFF OMITTED] 28965.094
    
    [GRAPHIC] [TIFF OMITTED] 28965.095
    
    [GRAPHIC] [TIFF OMITTED] 28965.096
    
    [GRAPHIC] [TIFF OMITTED] 28965.097
    
    [GRAPHIC] [TIFF OMITTED] 28965.098
    
    [GRAPHIC] [TIFF OMITTED] 28965.099
    
    [GRAPHIC] [TIFF OMITTED] 28965.100
    
    [GRAPHIC] [TIFF OMITTED] 28965.101
    
    [GRAPHIC] [TIFF OMITTED] 28965.102
    
    [GRAPHIC] [TIFF OMITTED] 28965.103
    
    [GRAPHIC] [TIFF OMITTED] 28965.104
    
    [GRAPHIC] [TIFF OMITTED] 28965.105
    
    [GRAPHIC] [TIFF OMITTED] 28965.106
    
    [GRAPHIC] [TIFF OMITTED] 28965.107
    
    [GRAPHIC] [TIFF OMITTED] 28965.108
    
    [GRAPHIC] [TIFF OMITTED] 28965.109
    
    [GRAPHIC] [TIFF OMITTED] 28965.110
    
    [GRAPHIC] [TIFF OMITTED] 28965.111
    
    [GRAPHIC] [TIFF OMITTED] 28965.112
    
    [GRAPHIC] [TIFF OMITTED] 28965.113
    
    [GRAPHIC] [TIFF OMITTED] 28965.114
    
    [GRAPHIC] [TIFF OMITTED] 28965.115
    
    [GRAPHIC] [TIFF OMITTED] 28965.116
    
    [GRAPHIC] [TIFF OMITTED] 28965.117
    
    [GRAPHIC] [TIFF OMITTED] 28965.118
    
    [GRAPHIC] [TIFF OMITTED] 28965.119
    
    [GRAPHIC] [TIFF OMITTED] 28965.120
    
    [GRAPHIC] [TIFF OMITTED] 28965.121
    
    [GRAPHIC] [TIFF OMITTED] 28965.122
    
    [GRAPHIC] [TIFF OMITTED] 28965.123
    
    [GRAPHIC] [TIFF OMITTED] 28965.124
    
    [GRAPHIC] [TIFF OMITTED] 28965.125
    
    [GRAPHIC] [TIFF OMITTED] 28965.126
    
    [GRAPHIC] [TIFF OMITTED] 28965.127
    
    [GRAPHIC] [TIFF OMITTED] 28965.128
    
    [GRAPHIC] [TIFF OMITTED] 28965.128
    
    [GRAPHIC] [TIFF OMITTED] 28965.130
    
    [GRAPHIC] [TIFF OMITTED] 28965.131
    
    [GRAPHIC] [TIFF OMITTED] 28965.132
    
    [GRAPHIC] [TIFF OMITTED] 28965.133
    
    [GRAPHIC] [TIFF OMITTED] 28965.134
    
    [GRAPHIC] [TIFF OMITTED] 28965.135
    
    [GRAPHIC] [TIFF OMITTED] 28965.136
    
    [GRAPHIC] [TIFF OMITTED] 28965.137
    
    [GRAPHIC] [TIFF OMITTED] 28965.138
    
    [GRAPHIC] [TIFF OMITTED] 28965.139
    
    [GRAPHIC] [TIFF OMITTED] 28965.140
    
    [GRAPHIC] [TIFF OMITTED] 28965.141
    
    [GRAPHIC] [TIFF OMITTED] 28965.142
    
    [GRAPHIC] [TIFF OMITTED] 28965.143
    
    [GRAPHIC] [TIFF OMITTED] 28965.144
    
    [GRAPHIC] [TIFF OMITTED] 28965.145
    
    [GRAPHIC] [TIFF OMITTED] 28965.146
    
    [GRAPHIC] [TIFF OMITTED] 28965.147
    
    [GRAPHIC] [TIFF OMITTED] 28965.148
    
    [GRAPHIC] [TIFF OMITTED] 28965.149
    
    [GRAPHIC] [TIFF OMITTED] 28965.150
    
    [GRAPHIC] [TIFF OMITTED] 28965.151
    
    [GRAPHIC] [TIFF OMITTED] 28965.152
    
    [GRAPHIC] [TIFF OMITTED] 28965.153
    
    [GRAPHIC] [TIFF OMITTED] 28965.154
    
    [GRAPHIC] [TIFF OMITTED] 28965.155
    
    [GRAPHIC] [TIFF OMITTED] 28965.156
    
    [GRAPHIC] [TIFF OMITTED] 28965.157
    
    [GRAPHIC] [TIFF OMITTED] 28965.158
    
    The Chairman. Ms. Chen.

                  STATEMENT OF CHRISTINE CHEN

    Ms. Chen. Thank you, Mr. Chairman, Ranking Member and 
distinguished members of the Committee on House Administration. 
I am Christine Chen, the Executive Director of the Asian and 
Pacific Islander American Vote. I appreciate the opportunity to 
present to you the views of APIAVote regarding identification 
requirements in U.S. elections.
    I am privileged to represent organizations, partners and 
volunteers from my community who continue to promote democracy 
by expanding access to the electoral process by submitting 
testimony before the committee this morning.
    APIAVote is a national, nonpartisan, nonprofit organization 
that encourages and promotes civic participation of Asian 
Pacific Islanders in the electoral and public policy processes 
at the national, State and local levels. By working with 
national and local partners, APIAVote focuses on coordinating 
activities related to voter registration, education, outreach, 
mobilization and voting rights and advocacy. We have been able 
to build and establish relationships in communities where voter 
turnout as been traditionally low.
    Participating in the electoral process is a relatively new 
concept for the Asian Pacific Islander community. It was only 
with the enactment of the 1952 McCarren-Walter Act, also known 
as the Immigration and Nationality Act, that racial barriers 
and ethnic barriers to naturalization were listed to allow 
Asian immigrants to be naturalized for the first time in 
history.
    As a largely immigrant community, APIA's were deeply 
impacted by the anti immigrant sentiment during the legislative 
wave of 1996. Awakened to the need to become a politically 
engaged force, electoral organizing in the APIA community hit 
groundbreaking levels. Between 1990 and 2000 Asian American 
voters grew from less than a million to 1.98 million, a 118 
percent growth; and in 2004 3.2 million APIAs registered to 
vote, with an 85 percent turnout rate.
    But the Asian Pacific Islander community still faces many 
challenges in accessing and understanding the electoral system. 
In 2004, 6.3 million Asian Americans were eligible to vote but 
only 3.2 million registered. The APIA community has not 
historically been reached out to by mainstream voter 
mobilization activities, and the capacity of many nonprofits 
and volunteers working with the APIA and largely immigrant 
community is very low. This is one of the main challenges that 
APIAVote faces as we focus on building the capacity to outreach 
to the community and help them access the ballot box.
    Our partners across the country have implemented common 
practices and successful strategies to register potential 
voters by implementing voter registration drives at community 
events and festivals. Many of these first-time registrants were 
people filling out registration forms onsite and were not 
likely to be carrying around passports, birth certificates and 
naturalization papers. H.R. 4844 would have a chilling impact 
on similar outreach activities in the future and ultimately 
depress Asian Pacific Islander voter registration.
    In addition, these voter registration efforts are 
implemented by members of our community, most of whom are 
volunteers. These nonprofit organizations do not have the 
equipment and resources to obtain a photocopier and outdoor 
power source to make copies of these documents. In addition, 
these volunteers are not document experts and may not know what 
documents are required to comply with this proposed 
legislation.
    Proof of citizenship places onerous requirements on voters 
as well as voter registration and voter engagement 
organizations. A citizenship requirement to register and a 
photo ID to vote are so unrealistic and administratively 
burdensome that civic engagement will be the only activity 
effectively discouraged. These requirements undermine the 
legislative intent behind both the MVRA and HAVA, who sought to 
minimize barriers to vote and facilitate access to the ballot. 
Further election reform will promote greater participation in 
and turnout for elections.
    APIAVote understand and advocates that we maintain the 
integrity of the United States electoral process, but we also 
understand that current law laws are extremely tough on 
individuals who try to vote illegally. It is already a Federal 
offense for falsely claiming citizenship and for voting fraud.
    In addition, ever since U.S. immigration laws were reformed 
in 1996, noncitizens who try to vote are automatically given a 
one-way ticket out of the country, with no criminal conviction 
necessary.
    These nonprofits must decide whether or not the goal to 
promote democracy outweighs potential criminal penalties. 
Instead, civic participation organizations should be encouraged 
to support methods that strengthen democracy and ensure that 
the voice of every American is heard.
    So with that, APIAVote stands in strong opposition to 
requirements for proof of citizenship documents and the 
barriers to voting that this law will create for all Americans.
    So, Mr. Chairman, Ranking Member and the members of the 
committee, thank you for providing me this opportunity to 
present.
    [The statement of Ms. Chen follows:]
    [GRAPHIC] [TIFF OMITTED] 28965.159
    
    [GRAPHIC] [TIFF OMITTED] 28965.160
    
    [GRAPHIC] [TIFF OMITTED] 28965.161
    
    [GRAPHIC] [TIFF OMITTED] 28965.162
    
    [GRAPHIC] [TIFF OMITTED] 28965.163
    
    [GRAPHIC] [TIFF OMITTED] 28965.164
    
    [GRAPHIC] [TIFF OMITTED] 28965.165
    
    The Chairman. Thank you very much.
    It is striking in listening to your testimony and all the 
testimony we have heard today what incredible diversity we have 
across this country and dramatically illustrating the 
difficulty in establishing one national procedure; and I think 
that is why the point was made with the previous panel about 
accommodating these differences are important.
    The bells have just rung and we have votes. We have 
approximately 15 minutes to get there to vote so we will try to 
proceed rapidly. I doubt if we can finish before we have to go 
vote, although it would be nice. We always have the option of 
sending you questions by mail, if necessary, but we will 
proceed as rapidly as possible.
    Dr. Calingaert, just a quick question about the Carter-
Baker Commission that you served on. There were what, 20 
members?
    Dr. Calingaert. Twenty-one.
    The Chairman. Twenty-one. Was it evenly split between the 
two parties, or where did the extra one come from?
    Dr. Calingaert. It was about a third independent, and the 
Democrats and Republicans were otherwise evenly split.
    The Chairman. Okay. On this issue of an ID you took a vote, 
do you recall what that was?
    Dr. Calingaert. Well, there was a dissent that Spencer 
Overton authored, and two other members of the commission 
signed on to that dissent.
    The Chairman. So the other 18----
    Dr. Calingaert. Eighteen out of 21 approved the 
recommendation on voter ID.
    The Chairman. I see. Thank you.
    Mr. Overton, I have a question for you which--I am not 
trying to negate what you have said, but I want your comment on 
it.
    In September 2005 an article appeared in the Atlanta 
Journal Constitution when Andrew Young, former Atlanta mayor, 
civil rights pioneer--I am sure you know him; I know him--
wrote, ``At the end of the day a photo ID is a true weapon 
against the bondages of poverty. Anyone driving through a low-
income neighborhood sees the ubiquitous check-cashing 
storefronts, which thrive because other establishments, such as 
supermarkets and banks, won't cash checks without a standard 
photo ID.''
    Why not enfranchise the 12 percent of Americans who don't 
have driver's licenses or government-issued photo ID's. Won't 
those who don't currently have ID's benefit from getting them?
    I wanted to give you a chance to respond to that.
    Mr. Overton. Thank you very much. I would like to point out 
that 18 members did not vote for a photo ID. Certainly a 
majority were in favor of it but we didn't have a vote. And 
there were several members who felt uncomfortable, frankly, 
dissenting from a President who did not join our dissent.
    But there were not 18 members of the commission; indeed 
there were some Republicans who did not support photo ID in 
terms of our commission and our commission's recommendations.
    In terms of your particular question----
    The Chairman. Just a quick question. You mentioned the 
President. Was that President Carter or President Ford?
    Mr. Overton. President Ford was an earlier commission. Ours 
was chaired by President Carter and Secretary of State Baker.
    The Chairman. Yes.
    Mr. Overton. In terms of your particular question, Mr. 
Chair, my understanding is that actually Andy Young has 
retracted and pulled back from some of his statements; and in 
addition to that, certainly it is good for everyone to have an 
ID. It is not a situation where we want to say, well, your 
incentive to get an ID has to be for us to condition your right 
to vote on that ID.
    Again, widespread participation is key, Mr. Chair.
    We have heard about the perception of corruption here, and 
fraud, but again, just a lack of data in terms of how that 
perception of fraud reduces voter turnout; indeed, perception 
of voter suppression is maybe just as likely to discourage 
people from participating.
    We have heard about one case of fraud determining a close 
election, and from the data that we have, a photo ID is more 
likely to erroneously determine an election than a lack of 
photo ID because we are excluding so many legitimate voters.
    And then it is just so easy to get a photo ID. In USA Today 
they reported that using the Internet, anyone willing to break 
a few laws can be a mass producer of fake IDs. I have got a 
headline here that says, quote, ``Bush daughter used fake ID to 
buy alcohol.''
    Certainly legitimate voters may be restricted, but 
criminals would still be able to vote with a photo ID 
requirement.
    The Chairman. Thank you. You have made your point, clearly, 
both before and now.
    In the interest of time, I will stop and yield time to the 
ranking member.
    Ms. Millender-McDonald. Thank you, Mr. Chairman.
    When we speak about the Carter-Baker Commission and their 
photo ID that they brought forth, irrespective of the fact that 
many of those on that commission did not vote for it, the use 
of their REAL ID would allow a driver's license to double as a 
voting card, so it was not as draconian as what we are talking 
about today.
    And, Dr. Calingaert, when we speak about the driver's 
license doubling as a voting card, Mr. Hyde's bill asks for a 
photo ID, it does not speak about a driver's license, but a 
driver's license does not present itself as proof of 
citizenship. So how are we going to deal with the whole notion 
of this REAL ID that can double as a driver's license and Mr. 
Hyde's bill that says and speaks to a photo ID, and, of course, 
a driver's license is not a proof of citizenship?
    Dr. Calingaert. Under the REAL ID Act, a driver's license 
would, in effect, require proof of citizenship.
    Ms. Millender-McDonald. So one would have to get an 
additional photo ID even with this REAL ID that your commission 
spoke of?
    Dr. Calingaert. Well, the commission's recommendation is 
different from the Hyde bill.
    By essentially piggy-backing on REAL ID, the process of 
obtaining a REAL ID card would entail proof of citizenship and 
we would use that exact same process as a voter registration; 
and it also means that you have a one-step process of 
registering to vote and getting the required voter ID card.
    Ms. Millender-McDonald. You can see how difficult this will 
be for the average citizen having to go through all of these 
hoops. You are talking about this, but then you are talking 
about that you have to have photo ID even though you have a 
driver's license with a picture on it.
    If we talk about the Hyde bill again, the Hyde bill will 
trump provisional ballots that are required through the HAVA 
Act. Again, do we need unnecessary legislation when we have 
legislation already on the books? It is a matter of 
enforcement, would you agree with that?
    Dr. Calingaert. First, if I could just comment very 
quickly.
    Ms. Millender-McDonald. Provisional ballots.
    Dr. Calingaert. For provisional ballots, what the Carter-
Baker Commission recommends is that voters who don't have the 
required ID should be allowed to cast a provisional ballot, and 
until 2010, if the signature matches the signature in the voter 
registration data base, that that provisional ballot would be 
counted.
    I just want to clarify on the earlier comment, the Carter-
Baker Commission piggy-backs on the REAL ID Act because it is 
already enacted into law, and so--under current law, obviously, 
the regulations for implementation are still being developed, 
but under the REAL ID Act, individuals who get a driver's 
license that is recognized by the Federal Government will have 
to prove citizenship and will have to provide these documents.
    We are not calling for an additional requirement for 
voting, we are simply saying, since citizens will already have 
to do that under the REAL ID Act, let's simply use that card as 
a voting card.
    Ms. Millender-McDonald. I want to get to others. It is so 
convoluted, extremely convoluted, here.
    Mr. Stein, you are over the Federation for American 
Immigration Reform. Here we are trying to get an immigration--
comprehensive immigration reform. Why aren't you helping all of 
us with that, as opposed to this that certainly does go at the 
core of discriminatory practices in the bill that Mr. Hyde has? 
Why aren't you working on a comprehensive immigration law that 
we sorely need? We sorely need that.
    Mr. Stein. I am glad you asked me that question because we 
have been working on that for almost 30 years now; and we have 
been actively involved in working with many Members of the 
House, and we would welcome an opportunity to work with you on 
comprehensive legislation which fundamentally is somewhat 
different from what the Senate passed, candidly.
    Ms. Millender-McDonald. Those are the key issues that are 
before us now that the voters are asking for, calling on all 
the time. I get hundreds of calls with people asking about a 
comprehensive immigration bill. And to me these are the 
critical issues that we have before us, and certainly not 
anything that a law, where other laws are already on the books. 
But we are talking about enforcement of laws that are already 
there.
    Mr. Stein. We are never going to get this problem solved, 
the immigration issue, unless we deal with the document 
demolition derby going on in this country. This is a step 
forward.
    Ms. Millender-McDonald. We must have immigration reform.
    Mr. Overton, he has given me the red light. I don't want 
him to gavel me, as he has done before, and so I am quietly 
trying to get back and sit quietly in my seat and be respectful 
as the ranking member.
    The Chairman. Thank you. I appreciate that.
    We will have to recess and return. I hope you will be able 
to stay--we should be back in 15 minutes. I would hope we would 
wrap up shortly after 1:00.
    With that, the committee stands in recess.
    [Recess.]
    The Chairman. I apologize for the interruption of the 
votes, plus I have a meeting in the room next door, which I 
will, of course, interrupt for this because this is the highest 
priority.
    Our next questioner is Ms. Lofgren. I yield 5 minutes for 
her questions.
    Ms. Lofgren. Thank you, Mr. Chairman and thanks to the 
witnesses for your patience in allowing us to run off for more 
than 15 minutes to continue our voting.
    Getting back to our failure on the Voting Rights Act 
yesterday, I can't separate in my own mind some of the issues 
that have merged here today, and that unfortunate circumstance.
    And I was wondering, Professor Overton--you are an expert 
on voting, as I understand it; and I didn't know you had 
written a book. I will probably go get a copy of it and read 
it.
    I am wondering, taking a look at some of the facts that are 
in the Wisconsin report that we have offered into the record--I 
mentioned the fact that African American men, 78 percent in an 
age group, don't have a license and there is other information 
in that report that indicates a differential based on race on 
who would be subject to the requirements in the Hyde bill.
    For example, to reregister--when you move you have to 
reregister. So who is moving and going to be subject to that 
provision is of interest. According to this study, 60 percent 
of African American adults in Wisconsin are without a car or 
truck, so that is a differential.
    But also the differential on who moves when is very high. 
African Americans, 63 percent moved in the 5-year period 
studied, and Asian Americans, 75 percent, whereas Anglos, only 
44 percent.
    In your knowledge of the Voting Rights Act, would the fact 
that what appeared to be, on its face, race-neutral actually 
trip up this act because of its application and the fact that 
we are aware of as it is being proposed?
    Mr. Overton. Well, let me start out by noting that section 
2 of the Voting Rights Act applies nationwide, and a possible 
section 2 claim could be brought against a photo ID requirement 
in, let's say, Wisconsin if that was passed on a State level. 
But section 5, which is expiring, or will expire in 2007, does 
not apply at this time to Wisconsin.
    Ms. Lofgren. I knew that, but it is like a poll tax.
    I remember back in 1964-65 our ranking member's father 
marched with Martin Luther King. I was out in California, and 
we joined and tried to provide support for the fight of African 
Americans to gain the right to vote; and one of the issues was, 
what is wrong with a literacy test, except that the people who 
didn't have access to education because of discrimination were 
the ones that would not be permitted to vote.
    Wouldn't this be the same type of thing?
    Mr. Overton. I do think that there is a close tie here. The 
question is, why can't these people bring ID? Everyone has ID. 
Voting is not a test. The objective of voting is to obtain the 
will of the people, to hear from everyone here, the will of all 
citizens, not just some, government of, by and for the people.
    Representative, when we look at McDonald's and we look at 
Starbucks, they don't say, well, why don't our customers just 
bring photo ID to use their credit card? They know they will 
lose money, but they will go out of business if they erect 
barriers. They try to make things easy for people to 
participate. Even though there might be some danger of fraud, 
they know they will lose more money by excluding legitimate 
customers.
    The existing data suggests that is going to be the case, 
and it is a slippery slope. At first we said, oh, ID is 
reasonable. Well, certainly many people thought, we need to pay 
for elections and, therefore, we need a poll tax. Some folks 
thought, well, we want intelligent voters to make intelligent 
decisions; it is reasonable to have a literacy test.
    So it certainly is a slippery slope.
    Just a note in terms of Mr. Bettencourt from the earlier 
panel, he mentioned that they did a registration list match, 
and out of 1.9 million registered voters there were 35 foreign 
nationals that were found. Well, if we were to use a photo ID 
to determine those people, rather than the match that he did, 
we would end up excluding about 5,400 legitimate voters for 
every single non-citizen who was voting.
    So that is antidemocratic, yes.
    Ms. Lofgren. It just seems to me--I used to teach 
immigration law, and one of the things I have noticed is that 
most people who come over here, they are not sneaking across 
the border to vote; they are sneaking across the border for a 
job.
    If they felt that any kind of compromise on this would make 
it harder for them, that is the last thing you want.
    I see my red light is on. You have been very indulgent. I 
appreciate it.
    The Chairman. Thank you very much.
    We have kept you a very long time here, and I would like to 
wrap this up. I am willing to forgo my further questions and 
submit them in writing if the rest of the panel is willing to 
do the same. I see Members nodding.
    The Chairman. So given that, I want to thank you very, very 
much for your participation. I can't speak for the entire 
panel, but I have to say for myself it has been very, very 
enlightening, the entire hearing, from the two Members with 
different viewpoints to the first panel, to the second panel; 
and I really appreciate your contributions.
    I even more deeply appreciate your conviction that we have 
to do the right thing on this. I refer to all of you on that 
point. I am delighted that you spent that much time studying it 
because clearly Members of Congress can't afford that much 
time, although our staff does. But all of you have added to the 
mix here.
    We have some serious things to think about here. And in 
particular, what I have become impressed with is our 
responsibility as a government that whatever we do, we have to 
try to make it easy to do.
    And I think, Mr. Overton, you said something like this in 
your report as part of the Carter-Baker Commission, something 
to the effect that our job as a government is to ensure that 
everyone who wishes to vote, may vote. And also it is our 
responsibility to ensure that everyone who does vote, votes 
legally.
    Those are both admirable goals. Those have always been my 
goals.
    But I also understand that there can be a conflict there, 
and our job then is to mediate that to make sure we achieve 
both goals in the most fair and equitable manner possible and 
that would be my objective on this committee, and I believe 
that is shared by all the Members as well.
    So thank you again for being here. I thank my committee 
Members for being here and I have some formalities to go 
through.
    Ms. Millender-McDonald. Mr. Chairman.
    The Chairman. Just one moment. Did you have a question to 
ask?
    Ms. Millender-McDonald. I wanted to ask unanimous consent 
to submit some letters from members for the record and to also 
state that if we may have 7 legislative days during which to 
submit testimony, comments and extraneous matters for the 
record.
    The Chairman. I will be taking care of that right now. I 
have thanked everyone here.
    I ask unanimous consent that members and witnesses have 7 
calendar days to submit material for the record, including 
additional questions of the witnesses, which I presume you 
would answer, and for those statements and materials to be 
entered into the appropriate place in the record. Without 
objection, the material will be so entered.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 28965.166
    
    [GRAPHIC] [TIFF OMITTED] 28965.167
    
    [GRAPHIC] [TIFF OMITTED] 28965.168
    
    [GRAPHIC] [TIFF OMITTED] 28965.169
    
    [GRAPHIC] [TIFF OMITTED] 28965.170
    
    [GRAPHIC] [TIFF OMITTED] 28965.171
    
    [GRAPHIC] [TIFF OMITTED] 28965.172
    
    [GRAPHIC] [TIFF OMITTED] 28965.173
    
    [GRAPHIC] [TIFF OMITTED] 28965.174
    
    [GRAPHIC] [TIFF OMITTED] 28965.175
    
    [GRAPHIC] [TIFF OMITTED] 28965.176
    
    [GRAPHIC] [TIFF OMITTED] 28965.177
    
    [GRAPHIC] [TIFF OMITTED] 28965.178
    
    [GRAPHIC] [TIFF OMITTED] 28965.179
    
    [GRAPHIC] [TIFF OMITTED] 28965.180
    
    [GRAPHIC] [TIFF OMITTED] 28965.181
    
    [GRAPHIC] [TIFF OMITTED] 28965.182
    
    [GRAPHIC] [TIFF OMITTED] 28965.183
    
    [GRAPHIC] [TIFF OMITTED] 28965.184
    
    [GRAPHIC] [TIFF OMITTED] 28965.185
    
    [GRAPHIC] [TIFF OMITTED] 28965.186
    
    [GRAPHIC] [TIFF OMITTED] 28965.187
    
    [GRAPHIC] [TIFF OMITTED] 28965.188
    
    [GRAPHIC] [TIFF OMITTED] 28965.189
    
    [GRAPHIC] [TIFF OMITTED] 28965.190
    
    [GRAPHIC] [TIFF OMITTED] 28965.191
    
    [GRAPHIC] [TIFF OMITTED] 28965.192
    
    [GRAPHIC] [TIFF OMITTED] 28965.193
    
    [GRAPHIC] [TIFF OMITTED] 28965.194
    
    [GRAPHIC] [TIFF OMITTED] 28965.195
    
    [GRAPHIC] [TIFF OMITTED] 28965.196
    
    The Chairman. I also move that we enter the Department of 
Justice report that I referred to earlier into the record. 
Without objection, so ordered.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 28965.197
    
    [GRAPHIC] [TIFF OMITTED] 28965.198
    
    [GRAPHIC] [TIFF OMITTED] 28965.199
    
    [GRAPHIC] [TIFF OMITTED] 28965.200
    
    [GRAPHIC] [TIFF OMITTED] 28965.201
    
    [GRAPHIC] [TIFF OMITTED] 28965.202
    
    [GRAPHIC] [TIFF OMITTED] 28965.203
    
    [GRAPHIC] [TIFF OMITTED] 28965.204
    
    [GRAPHIC] [TIFF OMITTED] 28965.205
    
    [GRAPHIC] [TIFF OMITTED] 28965.206
    
    The Chairman. I ask unanimous consent that staff be 
authorized to make technical and conforming changes on all 
matters considered by the committee at today's hearing. Without 
objection, so ordered.
    Having completed our business for today and for this 
hearing, the committee is hereby adjourned.
    [Whereupon, at 1:26 p.m., the committee was adjourned.]

</pre></body></html>
